<html>
<title> - DISCUSSION DRAFT: THE 21ST CENTURY TRANSPORTATION FUELS ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


      DISCUSSION DRAFT: THE 21ST CENTURY TRANSPORTATION FUELS ACT

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           DECEMBER 11, 2018

                               __________

                           Serial No. 115-172
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov

                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-787 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1d6d725d7e686e697578716d337e727033">[email&#160;protected]</a>       




                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana             Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
KEVIN CRAMER, North Dakota           SCOTT H. PETERS, California
TIM WALBERG, Michigan                DEBBIE DINGELL, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

                                 ______

                      Subcommittee on Environment

                         JOHN SHIMKUS, Illinois
                                 Chairman
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    RAUL RUIZ, California
MARSHA BLACKBURN, Tennessee          SCOTT H. PETERS, California
GREGG HARPER, Mississippi            GENE GREEN, Texas
PETE OLSON, Texas                    DIANA DeGETTE, Colorado
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
BILL FLORES, Texas                   TONY CARDENAS, California
RICHARD HUDSON, North Carolina       DEBBIE DINGELL, Michigan
KEVIN CRAMER, North Dakota           DORIS O. MATSUI, California
TIM WALBERG, Michigan                FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)

                                  (ii)
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
                                                                   
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     2
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     4
    Prepared statement...........................................     5
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
    Prepared statement...........................................     8
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, prepared statement........................   195

                               Witnesses

Steve Zimmer, Executive Director, United States Council for 
  Automotive Research............................................     9
    Prepared statement...........................................    12
R. Timothy Columbus, Counsel, National Association of Convenience 
  Stores and Society of Independent Gasoline Marketers of America    19
    Prepared statement...........................................    21
Wesley Spurlock, Past President and Chairman, National Corn 
  Growers Association............................................    34
    Prepared statement...........................................    36
Emily Skor, Chief Executive Officer, Growth Energy...............    44
    Prepared statement...........................................    46
Geoff Cooper, President and Chief Executive Officer, Renewable 
  Fuels Association..............................................    55
    Prepared statement...........................................    57
Chet Thompson, President and Chief Executive Officer, American 
  Fuel and Petrochemical Manufacturers...........................    68
    Prepared statement...........................................    70
Brooke Coleman, Executive Director, Advanced Biofuels Business 
  Council........................................................    97
    Prepared statement...........................................   100
Michael McAdams, President, Advanced Biofuels Association........   118
    Prepared statement...........................................   120
Manning Feraci, Director of Federal Affairs, Coalition for 
  Renewable Natural Gas..........................................   148
    Prepared statement...........................................   150
David Fialkov, Vice President, Government Relations/Legislative 
  and Regulatory Counsel, National Association of Truckstop 
  Owners.........................................................   162
    Prepared statement...........................................   164
Kurt Kovarik, Vice President of Federal Affairs, National 
  Biodiesel Board................................................   180
    Prepared statement...........................................   182

                           Submitted Material

Discussion Draft, H.R. ___, the 21st Century Transportation Fuels 
  Act, submitted by Mr. Shimkus..................................   196
Summary, Discussion Draft, 21st Century Transportation Fuels Act, 
  submitted by Mr. Shimkus.......................................   230
Letter of December 11, 2018, from Frank J. Macchiarola, Vice 
  President, Downstream and Industry Operations, American 
  Petroleum Institute, to Mr. Shimkus and Mr. Tonko, submitted by 
  Mr. Shimkus....................................................   236
Letter of December 3, 2018, from Ted Mottaz, President, Illinois 
  Corn Growers Association, to Mr. Shimkus, submitted by Mr. 
  Shimkus........................................................   239
Letter of December 11, 2018, from Todd J. Teske, Chief Executive 
  Officer and President, Briggs & Stratton, to Mr. Shimkus and 
  Mr. Tonko, submitted by Mr. Shimkus............................   241
Statement of the National Farmers Union by Roger Johnson, 
  December 11, 2018, submitted by Mr. Shimkus....................   243
Letter of December 10, 2018, from Dr. David Cooke, Senior 
  Vehicles Analyst, Clean Vehicles Program, Union of Concerned 
  Scientists, to committee members, submitted by Mr. Shimkus.....   245

 
      DISCUSSION DRAFT: THE 21ST CENTURY TRANSPORTATION FUELS ACT

                              ----------                              


                       TUESDAY, DECEMBER 11, 2018

                  House of Representatives,
                       Subcommittee on Environment,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 a.m., in 
room 2123, Rayburn House Office Building, Hon. John Shimkus 
(chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, McKinley, Barton, 
Olson, Johnson, Flores, Hudson, Walberg, Carter, Duncan, Walden 
(ex officio), Tonko, Ruiz, Peters, and Green.
    Also present: Representative Loebsack.
    Staff present: Jerry Couri, Deputy Chief Counsel, 
Environment; Wyatt Ellertson, Professional Staff Member, Energy 
and Environment; Adam Fromm, Director of Outreach and 
Coalitions; Ali Fulling, Legislative Clerk, Oversight and 
Investigations, Digital Commerce and Consumer Protection; 
Jordan Haverly, Policy Coordinator, Environment; Mary Martin, 
Chief Counsel, Energy and Environment; Sarah Matthews, Press 
Secretary, Energy and Environment; Brandon Mooney, Deputy Chief 
Counsel, Energy; Caitlin Haberman, Minority Professional Staff 
Member; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Alexander Ratner, Minority 
Policy Analyst; Tim Robinson, Minority Chief Counsel; Andrew 
Souvall, Minority Director of Communications, Member Services, 
and Outreach; Teresa Williams, AAAS Fellow.
    Mr. Shimkus. The Subcommittee on the Environment will now 
come to order.
    Before I do my opening statement, I want to--my last chance 
to be in the chair, I want to thank the loyal opposition and 
the minority.
    I think the subcommittee has had a pretty good record of 
moving some very contentious pieces of legislation, from TSCA 
to the Safe Drinking Water Act to Brownfields to the nuclear 
waste reauthorization language that passed 340 to 72.
    In all honesty, couldn't do it without your help, and so I 
want to publicly say that and thank you.
    I'll now recognize myself for 5 minutes for an opening 
statement.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Good morning, and thank you all for being here. Given the 
large number of witnesses and in the interest of maximizing 
time for questions and discussions, I will keep my opening as 
brief as possible and welcome others to do the same.
    Over the last 2 years, many of you have heard me say 
transportation fuels legislation was one of my ``reach goals'' 
for this Congress.
    To that end, interested Members participated in three 
stakeholder roundtables to get this conversation started and 
the Environment Subcommittee held five hearings to further 
explore the future of transportation fuels.
    I want to thank Chairman Walden for not just allowing but 
encouraging this effort. I also want to thank the witnesses 
before us today who actively engaged in those roundtables and 
hearings, and I especially want to thank Congressman Flores who 
coauthored the resulting discussion draft with me.
    Rather than looking at individual Federal transportation 
fuel policies on their own, the draft 21st Century 
Transportation Fuels Act takes a wider view of those
    policies and considers how they might work together to 
bring more value to consumers and more certainty to 
stakeholders.
    The draft would transition from blend-specific mandates to 
performance-based standards for future fuels and vehicles, 
remove long-standing barriers to the availability and usability 
of higher ethanol blends, provide an additional decade of 
certainty for advanced biofuels, and harmonize EPA and DOT 
vehicle efficiency programs.
    The need for this type of comprehensive reform is timely. 
Stakeholders on all sides of this debate have been whipsawed by 
months, by rumors and actual administration actions, and that 
uncertainty will only increase after 2022 when EPA receives 
even broader discretion to set biofuel blending requirements.
    In fact, given EIA projections of declining liquid 
transportation fuel demand, it's difficult to envision a post-
2022 scenario in which biofuel volumes would not actually be 
lower than they are today.
    I look forward to a constructive dialogue about what the 
future holds as well as what the discussion draft would mean 
for the various stakeholders.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Good morning and thank you all for being here. Given the 
large number of witnesses, and in the interest of maximizing 
time for questions and discussion, I will keep my opening as 
brief as possible and welcome others to do the same.
    Over the last 2 years, many of you have heard me say 
transportation fuels legislation was one of my `reach goals' 
this Congress. To that end, interested Members participated in 
three stakeholder roundtables to get this conversation started, 
and the Environment Subcommittee held five hearings to further 
explore the future of transportation fuels. I want to thank 
Chairman Walden for not just allowing but encouraging this 
effort, I also want to thank the witness before us today who 
all actively engaged in those roundtables and hearings, and I 
especially want to thank Congressman Flores who coauthored the 
resulting discussion draft with me.
    Rather than looking at individual Federal transportation 
fuel policies on their own, the draft 21st Century 
Transportation Fuels Act takes a wider view of those policies 
and considers how they might work together to bring more value 
to consumers and more certainty to stakeholders. The draft 
would transition from blend-specific mandates to performance-
based standards for future fuels and vehicles, remove long-
standing barriers to the availability and usability of higher 
ethanol blends, provide an additional decade of certainty for 
advanced biofuels, and harmonize EPA and DOT vehicle efficiency 
programs.
    The need for this type of comprehensive reform is timely. 
Stakeholders on all sides of this debate have been whipsawed 
for months by rumored and actual administrative actions, and 
that uncertainty will only increase after 2022 when EPA 
receives even broader discretion to set biofuel blending 
requirements. In fact, given EIA projections of declining 
liquid transportation fuel demand, it's difficult to envision a 
post-2022 scenario in which biofuel volumes would not actually 
be lower than they are today. I look forward to a constructive 
dialogue about what the future holds as well as what the 
discussion draft would mean for the various stakeholders. And 
with that I yield the remainder of my time to Mr. Flores.

    Mr. Shimkus. And with that, I yield the remainder of my 
time to Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman.
    I appreciate you calling this hearing on today's discussion 
draft. I'd also like to extend a warm welcome to one of the 
folks that grew up in the same little town I did up in the 
Texas Panhandle, Mr. Wesley Spurlock. Great to have you here as 
a witness.
    Since the RFS was first established in 2005 and expanded in 
2007, much has changed in the market for transportation fuels. 
If Federal policies are not routinely evaluated and updated to 
reflect market conditions, consumers end up having less than 
optimal choices.
    Let me give you a few examples of the concerns that have 
been raised before this committee about the current status quo 
of American fuels policy.
    Number one, biofuels producers raise concerns on the annual 
implementation of the RFS and other regulatory barriers to the 
market.
    Two, refiners face increasing cost of complying with the 
RFS.
    Three, automakers face challenges in complying with 
efficiency programs under two different agencies inside the EPA 
and the DOT.
    As Chairman Shimkus--number four, some environmental 
communities believe that the current generation ethanol or gen 
1 ethanol is an environment--creates environmental problems.
    As Chairman Shimkus stated, the 21st Century Transportation 
Fuel Act Discussion Draft takes a larger view of Federal 
transportation fuel policies.
    This draft incorporates into legislative text many of the 
ideas from three bipartisan roundtables and five subcommittee 
hearings.
    For consumers, higher-octane fuels can bring increased 
economy and performance for the next generation of engines for 
stakeholders transitioning to the RFS.
    Transitioning RFS to national octane standards creates a 
new market opportunity for biofuels producers and gives 
compliance certainty to refiners and automakers.
    And before the panel starts, I have a few reflections on 
the testimony that I read today. One is we have to put the 
consumers and the environment first, not our self-interest.
    Number two, the choice is clear. We can either go with the 
status quo, which almost everybody has said is broken, or we 
can have a compromise solution because I can guarantee you 
there is not going to be a perfect solution that's going to 
make each of you 100 percent happy.
    These organizations spent valuable time giving feedback on 
this and that constructive feedback was appreciated. Some 
organizations spent their time bashing other stakeholders. That 
was not productive.
    And so the thing I would ask you is to stay engaged and 
remember that we don't all get 100 percent of what we want. We 
are trying to come up with an optimal solution for the 
consumers and the environment.
    Thank you, and I yield back the balance of my time.
    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Chair Shimkus.
    And Mr. Chair, I do want to thank you for your leadership 
of the subcommittee and your cooperative spirit that has moved 
us along in the right direction.
    I agree with your assessment. We have been productive and 
very successful as a subcommittee. And I thank our witnesses, 
not just for joining us this morning but also for your input in 
this process over the course of the 115th Congress.
    Before we go any further, I do want to recognize Chair 
Shimkus and Mr. Flores for all the work that went into 
producing this discussion draft. For the past 2 years, the 
subcommittee has hosted three stakeholder roundtables and five 
hearings on transportation fuels policy.
    As we heard at previous hearings, this is a complicated 
problem with no easy solution. So I appreciate the effort that 
went into developing the proposal.
    These Members were given an incredibly difficult 
assignment, trying to find common ground on an issue where many 
stakeholders say it does not exist.
    While I have some serious concerns with the draft as it is 
currently written, I do think that the chair and Mr. Flores 
have done an admirable job and conducted a process in good 
faith to try to create that common ground.
    For the past 2 years, we have heard about issues with the 
implementation of the Renewable Fuel Standard program, which 
has existed under administrations from both parties.
    In my mind, the program can certainly be improved. We will 
hear about the use of small refinery waivers and the challenges 
with pathway approvals this morning and, despite some flaws, I 
believe it is critical, whether through RFS or another program, 
that the benefits of our Nation's clean energy transition are 
shared throughout the country including rural communities.
    Unfortunately, this administration's actions indicate that 
they do not share this belief. We have seen it through 
unnecessary trade disputes that hit farmers hardest. We have 
seen it when the president continues to deny the threat of 
climate change, despite the National Climate Assessment's 
finding that changes in precipitation coupled with rising 
extreme temperatures could reduce Midwest agricultural 
productivity to levels of the 1980s before midcentury.
    These types of actions are harming and will continue to 
harm rural economies and undermine the goals of the RFS. We 
should be working on legislation that meets our collective need 
for a cleaner energy future while directly benefitting and 
creating opportunities in rural communities.
    From the start of this process I have told stakeholders 
that I support the RFS or its potential replacement to the 
extent that it results in fewer greenhouse gas emissions.
    I am not certain that would be the outcome under the 
proposal before us. So while I look forward to hearing 
everyone's feedback, I do have concerns in its current form.
    I specifically want to mention the proposal's changes to 
the CAFE program in Title 3 of the draft. Perhaps all of 
today's witnesses will acknowledge the potential for high-
octane fuels as a method to achieve fuel economy standards.
    If CAFE compliance will become easier through a high-octane 
performance standard on top of the administration's freeze of 
previously announced standards, I do not think we should also 
provide additional credits to achieve compliance as would occur 
under Title 3.
    If we really want to drive efficiency and innovation while 
creating certainty, this discussion draft should drop the so-
called harmonization language and include legislation written 
by our colleague, Ms. Matsui, to preserve the previously 
announced CAFE standards.
    Finally, I want to say perhaps the only thing that will 
unite today's witnesses--granted, it is unity through 
opposition.
    It is my belief that the Federal Government should be 
advancing policies that reduce demand and reliance on liquid 
fuels. I am not naive enough to think this will happen 
overnight. But we know that the transportation sector is now 
the greatest source of greenhouse gas emissions in the United 
States and that our climate policy must address it.
    Earlier this year, we held a hearing that focused on 
electrification. But, sadly, none of the ideas discussed are 
reflected in the 21st Century Transportation Fuels Act.
    If we are going to do a major overhaul of Federal fuel and 
vehicle programs, we must look at how to further promote EVs as 
well.
    For the time being, while liquid fuels continue to be the 
predominant energy source in transportation, these fuels should 
be as clean and used as efficiently as possible.
    I thank you again, Mr. Chair, for your hard work on 
developing this proposal and with that, yield back.
    [The prepared statement of Mr. Tonko follows:]

                 Prepared statement of Hon. Paul Tonko

    Thank you, Chairman Shimkus. And thank you to our 
witnesses, not just for joining us this morning, but also for 
all your input in this process over the course of the 115th 
Congress.
    Before we go any further, I want to recognize Chairman 
Shimkus and Mr. Flores for all the work that went into 
producing this discussion draft.
    For the past 2 years, the subcommittee has hosted three 
stakeholder roundtables and five hearings on transportation 
fuels policy.
    As we heard at previous hearings, this is a complicated 
problem with no easy solution, so I appreciate the effort that 
went into developing this proposal.
    These Members were given an incredibly difficult 
assignment, trying to find common ground on an issue where many 
stakeholders say it does not exist.
    And while I have some serious concerns with the draft as it 
is currently written, I do think the Chairman and Mr. Flores 
have done an admirable job and conducted a process in good 
faith to try to create that common ground.
    For the past 2 years, we have heard about issues with the 
implementation of the Renewable Fuel Standard program, which 
have existed under administrations from both parties.
    In my mind, the program can certainly be improved. We will 
hear about the use of small refinery waivers and the challenges 
with pathway approvals this morning.
    And despite some flaws, I believe it is critical--whether 
through RFS or another program--that the benefits of our 
Nation's clean energy transition are shared throughout the 
country, including rural communities.
    Unfortunately, this administration's actions indicate that 
they do not share this belief.
    We have seen it through unnecessary trade disputes that hit 
farmers hardest.
    We have seen it when the President continues to deny the 
threat of climate change, despite the National Climate 
Assessment's finding that changes in precipitation, coupled 
with rising extreme temperatures, could reduce Midwest 
agricultural productivity to levels of the 1980s before 
midcentury.
    These types of actions are harming, and will continue to 
harm, rural economies and undermine the goals of the RFS.
    We should be working on legislation that meets our 
collective need for a cleaner energy future while directly 
benefiting, and creating opportunities in, rural communities.
    From the start of this process, I have told stakeholders 
that I support the RFS, or its potential replacement, to the 
extent that it results in fewer greenhouse gas emissions. I am 
not certain that would be the outcome under the proposal before 
us, so while I look forward to hearing everyone's feedback, I 
do have concerns in its current form.
    I specifically want to mention the proposal's changes to 
the CAFE program in Title III of the draft.
    Perhaps all of today's witnesses will acknowledge the 
potential for high-octane fuels as a method to achieve fuel 
economy standards.
    If CAFE compliance will become easier through a high-octane 
performance standard--on top of the administration's freeze of 
previously announced standards--I do not think we should also 
provide additional credits to achieve compliance, as would 
occur under Title III.
    If we really want to drive efficiency and innovation while 
creating certainty, this discussion draft should drop the so-
called ``harmonization'' language and include legislation 
written by our colleague Ms. Matsui to preserve the previously 
announced CAFE standards.
    Finally, I want to say perhaps the only thing that will 
unite today's witnesses--granted, it is unity through 
opposition. It is my belief that the Federal Government should 
be advancing policies that reduce demand and reliance on liquid 
fuels.
    I am not naive enough to think this will happen overnight. 
But we know that the transportation sector is now the greatest 
source of greenhouse gas emissions in the United States, and 
that our climate policy must address it.
    Earlier this year we held a hearing that focused on 
electrification, but sadly, none of the ideas discussed are 
reflected in the 21st Century Transportation Fuels Act.
    If we are going to do a major overhaul of Federal fuel and 
vehicle programs, we must look at how to further promote EVs as 
well.
    For the time being, while liquid fuels continue to be the 
predominant energy source in transportation, these fuels should 
be as clean, and used as efficiently, as possible.
    Thank you again, Mr. Chairman, for your hard work on 
developing this proposal. I yield back.

    Mr. Shimkus. The gentleman yields back his time.
    The Chair now recognizes the chairman of the full 
committee, Chairman Walden, for 5 minutes.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you, Mr. Chairman.
    I appreciate that, and I want to thank you and Mr. Flores 
and others for their work on this recent release of your 
discussion draft on the topic of our hearing today.
    You have done an amazing job on this and it is tough work, 
and I appreciate the seriousness that you have brought to this 
matter and I am glad you have followed through on your promise 
to push toward a legislative solution rather than let the 
traditional parties on this issue comfortably sit in their 
foxholes in perpetuity.
    It is one of the reasons why this hearing today is so 
important. This draft did not happen overnight.
    We all know that, and I want to acknowledge and commend the 
countless hours both you and Mr. Flores and our staffs and your 
staffs have spent trying to figure out what makes sense for our 
Nation's transportation fuel mix.
    As you have already said, Mr. Chairman, over the past 2 
years, this subcommittee has held three roundtable discussions 
to educate Members and another five hearings--today marking the 
sixth--to fine tune the committee's understanding of a range of 
issues related to liquid fuels and the motor vehicles powered 
by them.
    Throughout this process, I have been struck by the 
acknowledgment that liquid-fuel-powered motor vehicles are 
expected to be the dominant type of vehicle used by Americans 
for decades to come and no one knows what is going to happen 
regarding our Nation's renewable fuel mix beginning in 2023, 
which is why this draft is so important.
    By transitioning to higher-octane fuel blends and vehicles 
whose engines are designed to maximize fuel efficiency, we can 
both incorporate more renewable liquid fuels into the fuel 
supply while also increasing miles per gallon for consumers.
    I am pleased the discussion draft includes provisions I 
strongly support, especially the one which removes the gross 
inequity in Federal fuel policy regarding wood and forest 
management, so that woody biomass can play a larger role in the 
RFS program.
    But as the chairman stated, this draft is not a final 
product. We all know that. Getting this policy right is not 
easy, especially with complex and sometimes contentious issues 
like the Renewable Fuel Standard and vehicle fuel economy 
standards.
    Like any major legislation just starting out, it needs 
additional refinement. I am interested in learning from 
stakeholder expertise about what necessary refinements are 
needed for this bill and to hear about any important items that 
are not contained in it but that you believe should be.
    I am also concerned about what makes sense for the 
interests of consumers, especially as it relates to access to 
and pricing for and the availability and quantity of the 
engines and fuels that consumers demand or that Federal 
legislation requires.
    These are issues that were tangentially discussed in our 
hearings, but I feel can only be appropriately honed when 
people are evaluating a concrete proposal and providing real 
feedback about the best way to accomplish these goals.
    So to me, the bottom line is that new fuels and vehicles 
must first and foremost deliver benefits to consumers while 
improving our environment.
    I know some folks will want to discuss electric vehicles in 
conjunction with this bill and, frankly, as a hybrid driver on 
both coasts, I am certainly interested in hearing more on this 
subject. But liquid fuels for motor vehicles and the looming 
question arising in 2023 make the most sense to tackle right 
now.
    As I said at our third hearing, as things stand right now I 
have great concerns about the viability of EVs in meeting the 
needs of rural America, not to mention range and price issues 
that make EVs unrealistic for many Americans today, even as new 
innovations make their use more and more reasonable for many in 
our urban and suburban areas.
    I want to welcome our witnesses and those who chose to send 
the committee their comments to be included in the record. I 
look forward to learning from stakeholder expertise and really 
appreciate you all being here today.
    I know some interests have chosen either to be 
hypercritical or not to offer suggestions. But recognizing time 
is short for addressing this issue in a timely manner, I think 
they do so at the peril of their members.
    With that, Mr. Chairman, I thank you and Mr. Flores and 
others for your work, and I yield back the balance of my time.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Thank you, Mr. Chairman, for recognizing me for an opening 
statement.
    I congratulate you and Mr. Flores on the recent release of 
your discussion draft, the topic of our hearing today. I 
appreciate the seriousness that you have brought to this 
matter; and I am glad you have followed through on your promise 
to push toward a legislative solution rather than let the 
traditional parties on this issue comfortably sit in their 
foxholes in perpetuity. It is one of the reasons why this 
hearing today is so important.
    This draft did not happen overnight.
    I want to acknowledge and commend the countless hours both 
you and Mr. Flores, and your staffs, have spent trying to 
figure out what makes sense for our Nation's transportation 
fuel mix. As you have already said, Mr. Chairman, over the past 
2 years, this subcommittee has held three roundtable 
discussions to educate Members and another five hearings--today 
making six--to fine tune the committee's understanding of a 
range of issues related to liquid fuels and the motor vehicles 
powered by them.
    Throughout this process, I have been struck by the 
acknowledgement that liquid fuel powered motor vehicles are 
expected to be the dominant type of vehicle used by Americans 
for decades to come and that no one knows what is going to 
happen regarding our Nation's renewable fuel mix beginning in 
2023, which is why this draft is so important. By transitioning 
to higher-octane fuel blends and vehicles--whose engines are 
designed to maximize fuel efficiency, we can both incorporate 
more renewable liquid fuels into the fuel supply while also 
increasing miles per gallon for consumers.
    I am pleased the discussion draft includes provisions I 
strongly support--especially the one which removes the gross 
inequity in Federal fuel policy regarding wood and forest 
management so that woody biomass can play a larger role in the 
RFS program; but as the chairman stated, this draft is not a 
final product. Getting the policy right isn't always easy, 
especially with complex and sometimes contentious issues like 
the Renewable Fuel Standard and vehicle fuel economy standards. 
Like any major legislation just starting out, it needs 
additional refinement. I am interested in learning from 
stakeholder expertise about what necessary refinements are 
needed for this bill and to hear about any important items that 
are not contained in it, but they believe should be.
    I am most concerned about what makes sense for the 
interests of consumers, especially as it relates to access to, 
pricing for, and the availability and quality of the engines 
and fuels that consumers demand or that Federal legislation 
requires. These are issues that were tangentially discussed in 
our hearings, but I feel can only be appropriately honed when 
people are evaluating a concrete proposal and providing 
feedback about the best way to accomplish these goals. To me, 
the bottom line is that new fuels and vehicles must first and 
foremost deliver benefits to consumers while improving our 
environment.
    I know some folks will want to discuss electric vehicles in 
conjunction with this bill. As a hybrid driver on both coasts, 
I am certainly interested in hearing more on this subject, but 
liquid fuels for motor vehicles and the looming questions 
arising in 2023 make the most sense to tackle right now. As I 
said at our third hearing, as things stand right now, I have 
great concerns about the viability of EV's in meeting the needs 
of rural America, not to mention range and price issues that 
make EVs unrealistic for many Americans today, even as new 
innovations make their use more and more reasonable for many in 
our urban and suburban areas.
    I want to welcome our many witnesses and those who chose to 
send the committee their comments to be included in the record. 
I look forward to learning from stakeholder expertise about how 
to improve this bill. Further, since we want discussion, I 
encourage you to be forthright, but constructive about these 
proposals. I know some interests have chosen either to be 
hyper-critical or not to offer suggestions, but recognizing 
time is short for addressing this issue in a timely manner, I 
think they do so at the peril of their members.
    Thank you, again, Mr. Chairman, for this time. I yield back 
whatever remaining time I might have.

    Mr. Shimkus. The gentleman yields back the balance of his 
time.
    The ranking member of the full committee is not able to be 
here. So we will now conclude with Members' opening statements. 
The Chair would like to remind Members that, pursuant to 
committee rules, all Members' opening statements will be made 
part of the record.
    We want to thank our witnesses for being here today and to 
testify to the subcommittee. Today's witnesses will have the 
opportunity to give opening statements followed by a round of 
questions from Members.
    And our first witness panel is seated. I will introduce you 
as you're asked to speak, and we would like to start with Mr. 
Steve Zimmer, executive director, United States Council for 
Automotive Research, USCAR.
    Sir, you are welcome and you're recognized for 5 minutes.

 STATEMENTS OF STEVE ZIMMER, EXECUTIVE DIRECTOR, UNITED STATES 
COUNCIL FOR AUTOMOTIVE RESEARCH; R. TIMOTHY COLUMBUS, COUNSEL, 
   NATIONAL ASSOCIATION OF CONVENIENCE STORES AND SOCIETY OF 
  INDEPENDENT GASOLINE MARKETERS OF AMERICA; WESLEY SPURLOCK, 
PAST PRESIDENT AND CHAIRMAN, NATIONAL CORN GROWERS ASSOCIATION; 
   EMILY SKOR, CHIEF EXECUTIVE OFFICER, GROWTH ENERGY; GEOFF 
COOPER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, RENEWABLE FUELS 
 ASSOCIATION; AND CHET THOMPSON, PRESIDENT AND CHIEF EXECUTIVE 
     OFFICER, AMERICAN FUEL AND PETROCHEMICAL MANUFACTURERS

                   STATEMENT OF STEVE ZIMMER

    Mr. Zimmer. Thank you.
    Chairman Walden, Chairman Shimkus, Ranking Member Tonko, 
and members of the committee, my name is Steve Zimmer, 
executive director of the United States Council for Automotive 
Research, LLC, also known as USCAR.
    It's a collaborative automotive technology research 
organization of FCA US, Ford Motor Company, and General Motors.
    USCAR provides a legal framework for its three members to 
conduct noncompetitive research supporting a broad technical 
research portfolio in eight broad areas: power trains, 
electrification, electronics, batteries, hydrogen and fuel 
cells, manufacturing safety and materials.
    The research conducted at USCAR results in a shared 
knowledge base that enables development of new automotive 
technologies that solve industry-wide challenges and 
strengthens the U.S. auto industry.
    This approach supports multiple pathways to continually 
improve or evolve new automotive propulsion systems that meet 
current and future fuel efficiency, emissions and safety 
requirements, and creates innovative and environmentally 
responsible solutions for customers.
    Each USCAR member has its own independent research 
organization and portfolio, but at USCAR they work together. 
These research tasks would be impossible to achieve as quickly, 
if at all, as individual companies.
    I appreciate the committee's invitation to appear today to 
address the discussion draft for the 21st Century 
Transportation Fuels Act. As you know, personal mobility is 
changing at an unprecedented pace.
    The automobile industry has and will deliver mobility 
options that balance many technical, safety, and society 
requirements for the driving public.
    However, now more than ever all major mobility stakeholders 
must better coordinate and develop integrated energy and 
mobility strategies together.
    This committee's discussion draft is a great milestone and 
excellent example of such an integrated approach. Setting a 
national minimum octane standard is a necessary step towards 
the continuing development of the next generation of high-
efficiency vehicles.
    We commend the committee and the industry stakeholders 
involved and for their collaboration in this effort. We believe 
the proposed increase to 95 research octane number, or RON, as 
the new U.S. standard for regular gasoline for year 2023 and 
beyond will be a win for consumers, the auto industry, fuel 
producers, agriculture, retailers, and society.
    USCAR and its member companies are encouraged by the 
proposed 21st Century Transportation Fuels Act, the discussion 
draft that provides an excellent starting point for national 
octane standard legislation, higher-octane-rated gasoline 
facilities and the development of more efficient spark ignition 
engines.
    It is estimated that an increase in RON to 95 enables an 
average 3 percent improvement in fuel economy of newer 
vehicles. Increasing octane is beneficial for virtually all 
spark ignition engines regardless of the manufacturer, engine 
size, or architecture and does include both hybrid, electric, 
and plug-in hybrid electric vehicles.
    While establishing a new 95 RON grade is the critical piece 
of this proposed approach, it doesn't preclude the availability 
of a higher RON octane grades for use in high-performance 
vehicles.
    In Europe, 95 RON is regular while performance grade is 98 
RON or higher. While we view the discussion draft as a 
significant step in the right direction, we have some concerns 
and questions regarding several provisions.
    These include the provisions relating to a waiver for fuels 
containing up to 20 percent ethanol, vehicle design 
requirements and NIST fueling provisions.
    USCAR and its member companies look forward to working with 
the committee to address our concerns in other areas of the 
legislation.
    Ultimately, we believe the discussion draft led by this 
committee is the only viable near-term pathway for 
implementation of a 95 RON minimum and the benefits it can 
deliver.
    USCAR members are ready to move forward and implement this 
initiative. Thank you again for the opportunity to be here with 
you today and to provide testimony in support of this 
discussion draft proposing a high-octane fuel that will enable 
higher efficiency vehicles.
    Thank you very much.
    [The prepared statement of Mr. Zimmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    The Chair now recognizes Mr. Timothy Columbus, general 
counsel, Steptoe & Johnson, on behalf of the National 
Association of Convenience Stores and Society of Gasoline 
Marketers.
    You are recognized for 5 minutes, sir.

                STATEMENT OF R. TIMOTHY COLUMBUS

    Mr. Columbus. Here we are again, Mr. Chairman.
    Mr. Chairman, Ranking Member Tonko, members of the 
committee, my name is Tim Columbus. I am with the law firm of 
Steptoe & Johnson. I appear today on behalf of our clients, the 
National Association of Convenience Stores and the Society of 
Independent Gasoline Marketers of America.
    These associations represent something over 80 percent of 
the retail fuel sales in the United States.
    It's important that you understand that neither association 
today has a position on the discussion draft we are talking 
about. We do not support it. We do not oppose it.
    We commend the committee and the staff who have put a lot 
of time into this and we think it's an excellent start. There's 
still questions you have to answer and we have to answer before 
we know where we'll end up on this.
    In my written statement I touch on a number of issues and 
suggestions. I am going to touch on only five of those today.
    Specifically, we would suggest the draft language be 
modified to, one, make clear that any technological solution 
adopted to prevent misfueling must be cost effective with the 
auto makers but also for retailers.
    It is important to the retailing community that we don't 
end up carrying the costs of implementation on this ourselves. 
These are mostly small businesses and they're very cost 
sensitive. They will be happy to do their part, but this is 
going to have to be everybody doing their part.
    Number two, make clear that a retailer who complies with 
the misfueling prevention requirements is protected from 
liability resulting from any consumer activity, i.e., behaviour 
over which it has no control.
    Number three, make clear that existing dispensing equipment 
need not be hardened to ethanol blends above E10 unless those 
higher blends are in fact dispensed through that pump or 
dispensing equipment.
    Require EPA and FTC to harmonize their labelling regimes 
and those required labels must be clear regarding the octane 
and content levels being dispensed from any particular pump.
    That is not--they don't have to say exactly what it is but 
there should be some this would be up to E15, this could be up 
to E20.
    The fact is that the legacy fleet is not ready. I am an old 
man. The chairman knows this. I drive a very old car. It's very 
happy on E10. It is not prepared to drink E15 and it will spit 
up E20.
    So I have to know when I take that car to fuel what I am 
buying and that's really what we are looking for here.
    Finally, make clear that any price posting requirements 
that you set forth be compatible with relevant State and local 
laws and, crucially, not impair a retailer's ability to 
communicate cost-saving offers to consumers.
    Let me give you an example here. Most State laws require 
that the highest price for anyone to come in and buy a 
particular commodity be posted and we are fine with that.
     However, many retailers offer multiple prices at a pump. 
For example, if you come in and buy a carwash you may get 8 
cents a gallon off. Or if you are a member of an affinity 
program, you may have a bargain.
    The key here is to make sure that we can comply with State 
law but also not interfere with retailers' ability to offer 
consumers via the price signs a means of saving money.
    With that, I am going to wind up. I am not going to use all 
my time.
    Again, we don't have a position on this today. We look 
forward to working with all of you, going forward, on this 
project and commend you for what you have done so far.
    I will be happy to respond to any questions my testimony 
may have raised. Thank you.
    [The prepared statement of Mr. Columbus follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The Chair thanks the gentleman.
    The Chair now recognizes Mr. Wesley Spurlock, past 
president and chairman of the National Corn Growers 
Association.
    Sir, you're recognized for 5 minutes, and welcome.

                  STATEMENT OF WESLEY SPURLOCK

    Mr. Spurlock. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and subcommittee members. I appreciate the opportunity 
to be here for the National Corn Growers Association.
    I am Wesley Spurlock and our family raises corn, cotton, 
and cattle in the Texas Panhandle. As producers of the primary 
feedstock used in ethanol, corn farmers have a strong vested 
interest in the future of transportation fuels.
    The Renewable Fuel Standard has created significant 
opportunity for the farmers. The RFS is one of the most 
ambitious and successful energy, environmental, and economic 
policies Congress has enacted not only for farmers and rural 
communities but also for our drivers, our air quality, and our 
Nation's energy security.
     As use of homegrown renewable fuels has grown and has 
farmers have become more productive using fewer resources, the 
benefit of the RFS has exceeded the congressional projected.
    Agriculture met the challenge to help fuel America, not by 
putting more land into production but by becoming more 
productive with existing resources.
    Farmers today produce more corn with less land because the 
average has increased on corn by more than 25 bushels since 
2007.
    Ethanol production creates value-added coproducts such as 
distiller's grain for feed, corn oil for biodiesel, and some 
corn provides--the same corn provides food and fuel. The value 
added by ethanol and increased farmer productivity has had a 
positive impact on rural America, helping the next generation 
return to their family farms.
    But it's not only the farmers who benefit from the 
renewable fuels. Renewable fuels save drivers money. 
Environmental advocates backed enactment of the RFS. The RFS is 
the only Federal law that requires greenhouse gas emission 
reductions.
    Based on actual corn and ethanol production, the 
sustainability improvements in both today's corn ethanol 
results in 43 percent lower greenhouse gas emissions than 
gasoline. Clean burning ethanol is the fuel that displaces the 
more harmful compounds in gasoline, reducing tailpipe emissions 
and improving air quality.
    Chairman Shimkus' and Congressman Flores' discussion draft 
includes provisions corn growers do support. In addition to the 
RVP parity that allows higher ethanol blends and lower 
evaporative to be sold year round, we also support more 
regulatory certainty when it comes to approval of the higher 
blends such as E20.
    We support a high-octane vehicle test fuel so automakers 
can expedite new optimized vehicles. However, NCGA believes 
this discussion draft would undo successful renewable fuel 
policy. The net impact of this proposal would not maintain the 
market access renewable fuels currently have with the RFS and 
offer opportunity to expand ethanol as an octane source.
    Corn growers support high-octane fuels such as midlevel 
ethanol blends. We know high-octane fuels would give automakers 
the ability to design optimized engines with greater fuel 
efficiencies and with fewer greenhouse gas emissions.
    Ethanol is the lowest-cost, lowest-carbon octane source. 
Today's corn production practices are increasing soil carbon 
sequestration and ethanol's carbon footprint is shrinking.
    NCGA recently submitted comments on the administration's 
safe vehicle rule outlining the fuel economy of emissions 
benefits from a high-octane, low-carbon midlevel blend.
    We recommend regulatory steps that would remove barriers to 
fuel competition and high-octane fuel. An octane standard such 
as 95 RON that refiners can easily meet with current premium 
fuels cannot replace the market access for renewable fuels 
provided by the RFS.
    We cannot continue to reduce emissions with an octane 
standard that could be met by using octane from hydrocarbons.
    Chairman Shimkus, corn growers are grateful for your 
advocacy for farmers and the renewable fuels. We appreciate the 
time you have spent considering future transportation fuel 
needs.
    We also appreciate being asked to contribute to today's 
discussion. Should the committee undertakes future legislative 
discussion we ask that incoming Chairman Pallone and Tonko 
consider NCGA a source on renewable fuels policy and allow us 
to continue to work with the committee.
    Thank you.
    [The prepared statement of Mr. Spurlock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. Thank you.
    The Chair now recognizes Ms. Emily Skor, chief executive 
officer of Growth Energy. You're recognized for 5 minutes, and 
welcome.

                    STATEMENT OF EMILY SKOR

    Ms. Skor. Thank you.
    Chairman Shimkus, Ranking Member Tonko, members of the 
subcommittee, thank you for the opportunity to provide our 
perspective on the discussion draft being discussed today.
    My name is Emily Skor and I am the CEO Of Growth Energy, 
the leading ethanol industry association representing 100 
producer plants, more than half of the industry's total 
production.
    A transportation fuel mixed with more ethanol lowers costs 
for consumers, revitalizes our country's rural economy, and 
improves our environment. Our members thank you for attending 
to our 21st century transportation needs and recognizing the 
important of high-octane and continuing to advance these 
national interests.
    We have thoroughly reviewed the discussion draft and 
applaud the authors for, first, recognizing that octane plays a 
critical role in helping automakers meet fuel economy and 
greenhouse gas standards; second, allowing the year-round sale 
of higher ethanol blends like E15; and, third, granting Federal 
approval for fuel beyond E15, demonstrably supporting the 
research that affirms ethanol blends above 10 percent do not 
harm passenger vehicles.
    However, where we believe this draft falls short is in the 
assumption that the Renewable Fuel Standard, the RFS, is broken 
and needs to be fixed. We wholeheartedly disagree with that 
perspective.
    In fact, despite years of mismanagement, the RFS has 
fulfilled its congressional intent to increase domestic energy 
supplies, improve farm incomes and reduce carbon emissions with 
the added benefit of lowering the price at the pump.
    By any objective measurements, the RFS has been an 
overwhelming success. Repealing the RFS is unnecessary and will 
further destabilize a struggling farm economy and ethanol 
sector.
    Moreover, the draft does nothing to stop EPA's continued 
misuse of the small refinery exemption authority or even 
acknowledge the agency's unprecedented and possibly illegal use 
of this authority.
    EPA has already waived up to 2.25 billion gallons of 
biofuel blending, undermining demand by failing to reallocate 
those gallons in line with congressional intent and we face 
additional exemptions for 2018 and in the recently released 
2019 RFS rule.
    We applaud the examination of an octane standard. But the 
draft's proposed 95 RON is easily met with today's premium 
gasoline, which costs consumers about 50 cents more per gallon 
than regular fuel.
    A recent report from the Energy Information Administration 
cites that refiners would only need to make minor operational 
adjustments to supply the increased octane requirement of a 95 
RON baseline fuel.
    And in previous congressional testimony refiners stated 
that they planned to meet the 95 RON fuel standard with a 
current 10 percent ethanol blend.
    Today, ethanol is 25 cents less per gallon than gasoline 
and was as much as 90 cents earlier this year. As I previously 
testified, the past decade has shown oil companies will 
actively ignore economic incentives to prevent market entry of 
higher ethanol blends.
    Only by coupling a stable RFS to maintain market access 
with a significant boost in octane from a midlevel ethanol 
blend can consumers realize significant cost savings, increased 
engine efficiency, and substantial environmental benefits.
    Unfortunately, this draft as proposed will lead to reduced 
blending of cleaner biofuel and it will raise fuel costs for 
American drivers.
    We commend the authors for following sound science in 
approving E20. But the draft provides minimal guidance on 
approving ethanol blends beyond E20.
    E15 was approved nearly a decade ago and we are still 
working through hurdles erected to keep this legal fuel out of 
the market. This draft should recognize and seek to eliminate 
the myriad challenges to approving ethanol blended fuels to 
enable a reasonable pathway for their entry into the 
marketplace.
    While one of the draft's primary goals is to make the U.S. 
fuel supply uniform, it does not unify the availability of 
ethanol-blended fuels above 10 percent. Simply preventing 
future actions does nothing to break down State-level hurdles 
that exist today.
    This draft may even block the States from moving forward 
with higher blends. We must avoid backsliding on the progress 
of the RFS which has helped launch a more affordable low-carbon 
alternative to traditional petroleum fuels.
    While we do support certain aspects of this discussion 
draft, we believe it misses an opportunity to lay out a bold 
vision for the future of affordable liquid fuels and to make a 
significant impact restoring growth in America's rural 
communities and decarbonizing our Nation's fuel supply.
    Thank you, and I look forward to your questions.
    [The prepared statement of Ms. Skor follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The Chair thanks the gentlelady.
    The Chair now recognizes Mr. Geoff Cooper, president and 
CEO of the Renewable Fuels Association.
    You're recognized for 5 minutes.

                   STATEMENT OF GEOFF COOPER

    Mr. Cooper. Thank you.
    Good morning, Chairman Shimkus, Ranking Member Tonko, and 
members of the subcommittee.
    My name is Geoff Cooper, and I am the new president and CEO 
of Renewable Fuels Association, the national trade group 
representing the U.S. ethanol industry.
    I want to thank the chairman and the members of the 
subcommittee for your thoughtful consideration of our Nation's 
future energy policy needs and objectives.
    RFA has been an active participant throughout this process 
and we have appreciated the opportunity the share our 
perspectives on the vital role that biofuels can play in our 
energy future.
    The draft legislation we are here to discuss today 
represents an important first step forward in the debate about 
future fuels policy and specifically the role of high-octane 
fuels.
    Because ethanol is by far the most economical and cleanest 
source of octane available on the market today, it would seem 
on the surface that any effort to establish a high-octane fuel 
standard would benefit ethanol producers and the farmers who 
supply them.
    But it's not quite that simple. As currently drafted, RFA 
cannot support the proposal because it falls short of providing 
the future market certainty and the clear path to growth that 
our industry needs.
    By eliminating the Renewable Fuel Standard requirements for 
conventional biofuels in 2022 and adopting a no-growth 
methodology for advanced biofuel requirements through 2032, the 
draft bill would destabilize the considerable progress our 
Nation has made for greater energy security, economic vitality, 
and environmental health.
    We simply cannot support eliminating the RFS program as the 
draft envisions without a much stronger signal to the market 
that ethanol's role in our fuel supply will continue to grow.
    Even though ethanol is far superior to other octane 
boosters in terms of cost and environmental performance, a 95 
RON standard, when paired with elimination of the RFS, would 
not result in increased market opportunities for ethanol.
    To the contrary, we believe the 95 RON standard in the 
absence of the RFS or other environmental performance 
requirements could reduce demand for ethanol.
    Refiners and blenders would simply meet demand for more 
octane by increasing reformer severity and producing greater 
volumes of higher-octane hydrocarbons like aromatics, which are 
often toxic in nature, worsen air quality, and are typically 
two times the cost of ethanol.
    Thus, consumers would just end up paying more for dirtier 
gasoline.
    In fact, a new EIA Commission Study concludes that oil 
refiners would have, quote, ``no problem,'' quote, meeting a 
requirement to produce 95 RON gasoline beginning in 2022 and 
assumes that refiners would meet that standard with E10 
gasoline.
    The study found that, quote, ``no significant changes in 
refinery configuration our through put would be required to 
meet the minimum 95 RON gasoline requirement,'' end quote.
    And contrary to testimony previously offered to this 
subcommittee, the EIA study finds, quote, ``no industry wide 
capital intensive projects would be needed to meet the 
requirements,'' end quote.
    There are elements of the discussion draft that we do find 
very encouraging. We appreciate the provision requiring 
automakers to warrant vehicles built in 2023 and later for E20 
and we welcome the requirement that EPA approve an E20 fuel 
waiver.
    However, we believe ethanol blends above E20 like E25 and 
E30 will be necessary to deliver the octane levels that best 
facilitate greater fuel economy and emissions reductions.
    We also very much appreciate that the discussion draft 
again demonstrates this subcommittee's support for addressing 
the antiquated RVP barrier that is currently keeping E15 out of 
the marketplace on a broader scale.
    In closing, RFA strongly believes a high-octane fuel 
standard can work I concert with, not in conflict with, the 
RFS. The measures would be complementary and the RFS would 
assure that clean renewable octane sources like ethanol are 
able to access a high-octane fuel market that might otherwise 
be closed to competition.
    With proper oversight and implementation, the RFS can 
continue to work in tandem with a high-octane fuel standard to 
continue to drive innovation, support rural economies, and 
provide cleaner fuel choices at the pump well beyond 2022.
    We thank you again for starting this very important 
conversation and look forward to its continuation.
    Thank you, and I look forward to your questions.
    [The prepared statement of Mr. Cooper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The Chair thanks the gentleman.
    And last but not least on the first panel we have Mr. Chet 
Thompson, president of American Fuel and Petrochemical 
Manufacturers.
    Sir, you're recognized for 5 minutes, and welcome.

                   STATEMENT OF CHET THOMPSON

    Mr. Thompson. Thank you, Mr. Chairman, Ranking Member 
Tonko, other members of the subcommittee. I really appreciate 
the opportunity to be here this morning and share the views of 
the U.S. refining industry on this discussion draft.
    Let me start by thanking you, Mr. Chairman, Mr. Flores, and 
your committee staff for the incredible work you have done over 
the last year on this really critical topic.
    No doubt the easy thing for you to have done was to run 
quickly away from this issue a year ago. You didn't. You chose 
to stick it out, and we appreciate it.
    We also appreciate the release of this discussion draft.
    Mr. Chairman, when you told us a few months ago this was 
coming you promised us it would be far from perfect. You also 
promised us that all of us stakeholders would find something in 
it that we loved and something in it that we hate.
    Rest assured, your premonition was spot on. Well, 
unfortunately, we are not in a position to support the draft in 
its current form. But we do think it moves the ball.
    We think and hope it will generate momentum for further 
discussion and eventually statutory reform--reform that most of 
the stakeholders believe is so critical.
    As I have testified before this subcommittee on multiple 
occasions, most recently last April, the RFS in its current 
form is unsustainable. It's bad for consumers and it's only 
destined to get worse if reform does not happen before EPA 
takes over this program in 2022.
    I also testified that a proper transition from the RFS to a 
fuel-neutral 95 RON octane standard would be better for all 
stakeholders and could better harmonize our country's fuel and 
transportation policies.
    A 95 RON standard would help our auto companies improve the 
efficiency and reduce the emissions of the existing fleet and 
future fleets and comply with CAFE.
    It would provide retailers with optionality, to quote Mr. 
Columbus. It would provide farmers and ethanol producers with 
the potential for greater market share, contrary to what you 
have heard already this morning, and it would certainly provide 
relief for my members from the broken RFS.
    But most importantly, it would provide relief to 
consumers--relief in the form of lower prices.
    Against this backdrop, there are aspects of this discussion 
draft that we support and those that we don't. So let me start 
with the positive--what we can support.
    We certainly support the sunsetting of the RFS in exchange 
for 95 RON standard, you know, presuming or assuming it's done 
correctly.
    After years of study with the autos, a 95 RON performance 
standard has been demonstrated to be the most cost effective 
option for consumers for improving the efficiency of the 
transportation fleet, at least in the near term.
    Indeed, there's no other fuel option that is realistic I in 
the time frame we are talking about this morning. We support 
requiring all light-duty vehicles starting in 2023 to be 
designed specifically to run on this fuel, on at least a 95 
octane rating and potentially higher.
    Finally, we support the comprehensive misfueling 
requirements and liability protections afforded in the--in the 
draft. However, we do believe those protections need to be 
expanded to include the U.S. refining industry.
    Unfortunately, and, again, as highlighted much more 
extensively in my testimony, there are a few provisions, Mr. 
Chairman, as you might imagine, we can't support. So let me 
just highlight a few.
    First, we absolutely can't support a new 15 billion gallon 
per year mandate for a conventional ethanol. Such a mandate is 
unfeasible.
    Let me put this in a perspective. To hit this mark by 2020, 
which the draft would require, ethanol blending in our country 
would have to increase by 700 million gallons. Seven hundred 
million.
    Because of the blend wall, which is real, this would 
require E15 sales to increase by 3,000 percent--3,000 percent 
in a mere 12, 13 months. This is simply not possible.
    Nor can we support extending the RFS program until 2032. 
The program must end when a new 95 RON standard takes effect in 
2023.
    Nor can we support the draft's various E20 mandates. Autos 
should decide how to harden their vehicles to run on a new 95 
RON fuel, not the Government, and environmental and technical 
analysis that supports subsim determinations that can't be 
short-circuited through legislation.
    E20 should not be authorized to be released and used in the 
market until we have a full understanding of what the impact of 
E20 would be on existing automobiles.
    Finally, we do not support establishing 98 RON as a 
certification fuel. There is simply no nexus between a 98 RON 
cert fuel and a 95 RON that the draft would develop and create.
    There's already a pathway for EPA and for the autos to 
pursue to get a new cert fuel and there's absolutely no reason 
that this legislation needs to address this issue.
    So, again, in closing, let me say we appreciate your 
leadership over the past years, Mr. Chairman. Again, Mr. Flores 
and staff, we appreciate everything you have done.
    There are real opportunities here. The folks at this table 
have been at this for many years and we believe we are really 
starting to advance and there's lots of opportunities around a 
95 RON standard. We hope this remains a priority for this 
subcommittee next year.
    So I look forward to answering any of your questions.
    Thank you.
    [The prepared statement of Mr. Thompson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Shimkus. The Chair thanks the gentleman.
    We appreciate you all being here today, and now I will 
recognize myself for 5 minutes to open up the round of 
questions for this panel.
    2022 is a real date. We've asked the EPA about what could 
happen and EPA has told us that they have, quote-unquote, 
``broad authority'' they will have in 2023 and beyond, which 
could result in biofuel volumes lower than those provided in 
the statutory tables.
    Given that EIA projects a 31 percent decrease in motor fuel 
consumption between 2017 and 2025, do you expect RVOs to be 
higher or lower post-2022 than they are today?
    Mr. Zimmer, do you have any input? No.
    Mr. Columbus?
    Mr. Columbus. I will take pass on that.
    Mr. Shimkus. Mr. Spurlock.
    Mr. Spurlock. As the----
    Mr. Shimkus. You heard how I laid out the question. 2022 
liquid transportation fuels are projected to decline. EPA has 
broad authority to reset the tables.
    Will they be higher or will they be lower post-2023?
    Mr. Spurlock. I think we will show that we have done such a 
great job with the ethanol and where it's at as a additive in 
the fuel system that we'll be--we will come through fine on the 
reset.
    Mr. Shimkus. You say higher?
    Mr. Spurlock. Yes, sir.
    Mr. Shimkus. Ms. Skor.
    Ms. Skor. We would anticipate that the RVOs--if the 
blending is--the actual blending is consistent with the 
numbers, you'd be at 15 billion gallons of conventional corn-
based ethanol.
    Mr. Shimkus. Mr. Cooper.
    Mr. Cooper. Well, we certainly see no rationale for 
reducing the volumes post-2022 and EPA is----
    Mr. Shimkus. Do you accept the premise that the EIA 
information--that there will be less liquid transportation fuel 
on our market?
    Mr. Cooper. I do.
    Mr. Shimkus. OK.
    Mr. Cooper. Yes, I agree that we are going to see a decline 
in gasoline consumption long term.
    Mr. Shimkus. Do you think EPA will then raise the blending 
limit?
    Mr. Cooper. Again, I think there's no rationale for going 
below the 15 billion for conventional biofuels.
    Mr. Shimkus. OK. Mr. Thompson.
    Mr. Thompson. There's absolutely a rationale for doing it 
and if EPA follows the data they must do it. If transportation 
fuel demand goes down, E15 blending by definition goes down and 
the E15 market is still so nascent as not to pick up the slack. 
It has to go down.
    Mr. Shimkus. Thank you.
    Let me go to Mr. Spurlock. First of all, I want to thank 
the Corn Growers for being very involved in this work and I 
want to recognize that.
    In your testimony, you state that without the mandates in 
the RFS refiners would immediately default to petroleum-based 
octane enhancers to rise from their own feedstocks.
    Given that ethanol is such an overwhelmingly cheap octane 
enhancer in addition to your noted environmental benefits, 
wouldn't some refineries be more competitive if they were to 
opt for this lower cost source of octane?
    Mr. Spurlock. Yes, I feel that they would.
    Mr. Shimkus. OK. Let me go to Mr. Columbus.
    Would your retailers like lower prices for the exact same 
fuel or higher prices for the exact same fuel?
    Mr. Columbus. Now, that I will not pass on. Retailers want 
lower prices. We interface with the consumer every day and the 
simple reality is that the competition drives the price to the 
lowest plausible level and that includes the use of feedstocks 
by midlevel blenders as well as refineries to generate the 
lowest cost of product for the consumer.
    Mr. Shimkus. Let me go back to Mr. Thompson. I would like 
for you to comment on Mr. Cooper's quote of the EIA study on 
renewable fuel. Can you comment on that?
    Mr. Thompson. Is that for me, Mr. Chairman?
    Mr. Shimkus. Yes, sir.
    Mr. Thompson. Yes, I can. I mean, it's a--unfortunately, 
it's a mischaracterization of the analysis. Look, and it's 
consistent with what we've been saying.
    The EIA is a nothing burger. They said if we look in 2023 
would there have to be substantial new investment assuming E10 
in order to make a 95 RON fuel. No, of course it wouldn't.
    At that point the new fleet of autos that require 95 would 
just be taking off. It also assumes E10, which contrary to what 
we said, assumes that the status quo remains--that the ethanol 
is using at baseline.
    Then the EIA analysis only went out to 2023, I believe. So 
it's 5 years of implementation. So all it says is that the U.S. 
refining industry, based on E10, has enough octane capacity if 
it wants to meet the needs.
    It doesn't speak to what happens when the program is fully 
implemented and at that point we think there are 19 billion 
gallons of octane up for grabs, and we think that that octane 
could be met through lots of sources including ethanol.
    Ethanol has a 4-cent advantage over other sources of 
octane. This is--it's inaccurate to suggest this is not 
potentially good market share for the ethanol industry.
    Mr. Shimkus. Thank you. My time has expired.
    The Chair now recognizes the ranking member of the 
subcommittee, Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    I would like to get witnesses' views on the preemption 
language that's included in the discussion draft. While 
California's low California fuel standard is not strictly in 
ethanol law, ethanol is certainly one potential pathway to 
compliance with the law.
    Based on your reading, do you have any thoughts as to 
whether Section 204 would prohibit another State from adopting 
a low-carbon fuel standard similar to that of California's 
program?
    Mr. Zimmer, can we start with you?
    Mr. Zimmer. Excuse me. I don't have a comment on this 
specific question.
    Mr. Tonko. Mr. Columbus.
    Mr. Columbus. The fewer people defining different fuels in 
the United States, the more efficient the overall system is 
going to be. So, historically, our clients have supported 
preemption of State fuel standards and State mandates.
    Mr. Tonko. And Mr. Spurlock.
    Mr. Spurlock. I will take a pass on that. I am not sure 
what our standing would basically be on the question, and I do 
understand what you're asking.
    Mr. Tonko. OK.
    Ms. Skor.
    Ms. Skor. We believe that the preemption language doesn't 
go far enough. It's looking at future actions but it isn't 
looking at eliminating many of the legitimate roadblocks that 
exist in several States today.
    So what we would be looking for is to make sure that what 
happens at the Federal level is also followed through in all 50 
States.
    Mr. Tonko. Mr. Cooper.
    Mr. Cooper. We did not take a position on the preemption 
provisions in the draft. However, our read of it, I guess, 
would be that yes, future policies like a low-carbon fuel 
standard potentially would be preempted.
    But, again, we did not take a position.
    Mr. Tonko. And Mr. Thompson.
    Mr. Thompson. I would certainly interpret 204 to 
potentially prohibit other States from adopting a low-carbon 
fuel standard if they actually specify how much ethanol can and 
cannot be in a gallon of gasoline.
    So I would interpret it that way and we would support that. 
You know, there's a lot of resources by all the stakeholders 
that would go into establishing a new 95 RON standard and a 
patchwork system does not work.
    Mr. Tonko. Do you believe this language might impact 
California's ability to expand or make changes to its existing 
program?
    Let me start with you, Mr. Thompson, and work back.
    Mr. Thompson. I don't think it would. It's my understanding 
that the draft says expressly that this doesn't impact existing 
prohibitions and to the extent California has prohibitions 
already on the books, by definition this provision wouldn't 
touch it.
    Mr. Tonko. And Mr. Cooper.
    Mr. Cooper. I would agree with that response with the one 
caveat being if California did at some point in the future 
decide to increase the level of ethanol that's permitted in the 
State, this provision could potentially keep them from doing 
that.
    Mr. Tonko. Ms. Skor.
    Ms. Skor. I would agree that if California wants to go 
further in terms of blending more renewable biofuel it might be 
prohibited, based on the language that we see in the discussion 
draft.
    Mr. Tonko. And Mr. Spurlock.
    Mr. Spurlock. Yes, I would agree with Emily and Geoff.
    Mr. Tonko. And Mr. Columbus.
    Mr. Columbus. I think they're all right about this. So the 
reality is yes, it can get in the way of California doing 
something.
    Mr. Tonko. And finally, Mr. Zimmer.
    Mr. Zimmer. [No audible response.]
     Mr. Tonko. It's my understanding that while ethanol may be 
the cheapest source of octane, at the moment there's no 
guarantee in this discussion draft that it will be used in a 
future high-octane fuel.
    Would anyone like to comment on why or why not the source 
octane should be left open?
    Mr. Cooper.
    Mr. Cooper. Well, thanks, and I would like to use my time 
responding to that question to really respond to what Mr. 
Thompson said about the EIA report.
    I mean, I do think it's a very good study that underscores 
exactly that point, that refiners would not likely choose 
ethanol as the source of octane for a 95 RON fuel.
    You know, there's a number of refinery modeling studies out 
there that show refiners could get to 95 RON with just an extra 
2 or 3 cents per gallon in incremental costs. They could 
happily pass that along to the consumer and, you know, the 
other thing the EIA study pointed out, and it did look longer 
term than just 2023. They did look further into the future and 
analyse whether the refining sector could meet an incrementally 
larger demand of high-octane in the future and came to the same 
conclusion.
    The study also found that there is a significant amount of 
underutilized reforming and alkylation capacity today in the 
refining sector that could easily be switched on to provide 
that extra octane.
    Mr. Tonko. Ms. Skor.
    Ms. Skor. You're absolutely right. By taking away the 
guardrails provided by the RFS that enable market access you're 
essentially closing the market from competition.
    The transportation fuel marketplace it is not a free 
market. If it were a free market, right now the better quality, 
better-priced octane enhancer would be in much higher demand 
than it is today.
    So a high octane standard coupled with guardrails to ensure 
that we are using renewable octane would be the path forward.
    Mr. Tonko. Thank you.
    And Mr. Columbus.
    Mr. Columbus. With respect, I disagree with Ms. Skor. I 
think the most important thing is refiners are not the only 
source of motor fuel in the United States.
    People who don't own refineries manufacture motor fuel via 
blending of components which are available from domestic 
refineries as well as foreign sources.
    Mr. Tonko, you and I have had this conversation before. 
What drives the costs to manufacture is the big stupid price 
sign at retail. The lowest cost wins. If a refiner wanted to 
forget about the lowest-cost octane source in the country, I 
don't believe his competitors would permit that in a commercial 
sense. Competition actually works.
    Mr. Shimkus. The gentleman's time has expired.
    The Chair now recognizes the chairman emeritus, Joe Barton, 
for 5 minutes.
    Mr. Barton. Well, thank you, Mr. Chairman.
    The former Senator from the great State of Texas, Phil 
Gramm, whom many of you know, had a saying: ``Truth is a 
powerful drug. Use it sparingly.''
    And as a retiring Member, this may be my last hearing after 
32 years on this committee. So I am going to tell us what I 
think are some Barton truths. Now, they may not be truth, but I 
think they're truth.
    First of all, I think that Mr. Flores and Mr. Shimkus have 
done a very good job in trying to patch together a compromise 
bill that's good politics, and I think it would also work.
    I don't think it would work perfectly, but I think it'd 
work and I think the politics of it, potentially, work.
    Now, having said that, let me give you the Barton Bill and 
just raise the hackles on everybody's hair in this room. I 
would repeal every existing regulation and law on oxygen and 
CAFE standards. Repeal them all except for a few and maintain 
the oxygen requirement in the Clean Air Act. I think that makes 
sense.
    I would require that any money put into the leaking 
underground trust fund, which the acronym is LUST, actually be 
used to clean up leaking underground storage tanks.
    And I might--and I would listen to my corn growers on this 
one--I might keep the quotas on imported ethanol. I might not. 
But I would repeal everything else.
    If we did that and went to a pure market for ethanol, it 
would work. It would work. Back in 2005 when I was chairman, we 
passed the Energy Policy Act of 2005 and at the request of 
then-Speaker Denny Hastert we put in mandates to use ethanol, 
or renewable fuels.
    We also created a lot of research programs for renewable 
fuels and alternative energy, and if you look at the energy 
markets in the United States today, solar is doing very well. 
Wind is doing very well, and I--although the ethanol market has 
been up and down, I think you could argue that at least it's a 
mature market. It's not a struggling start-up market.
    But then in 2007 we came back and increased these mandates 
and we also increased the fuel--the CAFE standards. And the 
current law, folks, is unworkable. It's not going to work, and 
come 2020 don't kid yourself. If we throw all this to whoever's 
running EPA, they don't have any magic wands over there. 
They're not going to be able to bring order out of chaos.
    So, again, I want to go back to Mr. Shimkus and Mr. Flores. 
They have tried to look at the politics of it, I think, and 
they've tried to come up with something that works.
    Now, having said that, it's not going to--we are certainly 
not going to mark this bill up tomorrow and put it on the floor 
next week and go to the Senate and the Senate miraculously pass 
it.
    But you might--you have got a fighting chance to do 
something in the next Congress. So this is a good--this is a 
good place to start.
    So my question, you know, since this is the question 
period, Mr. Chairman, I got to ask at least one question. I 
can't just vent here.
    Mr. Shimkus. You haven't done that before, though, so----
    [Laughter.]
    Mr. Barton. I have. So I am going to ask Mr. Thompson. You 
won the lottery here. If we did what I said, pass the Barton 
Bill and don't--the politics of that are terrible, so I know 
that's not a starter, but it is true--would ethanol be used? 
Would there be a market that ethanol would compete for and be 
successful competing--corn-grown ethanol from the United 
States?
    Mr. Thompson. Thank you for the question, and we would 
support the Barton Bill. But absolutely ethanol would continue 
to compete. The RFS could go away tomorrow and the E10 would be 
the dominant fuel in this country.
    It is the cheapest source of octane and, as you know, when 
you go to the pump we are trying to put octane into the fuel 
from regular grade up to premium grade. It is the cheapest 
source of octane.
    It has a 4-cent advantage over anything else. You know, E0 
is 22 cents more expensive to make than E15 and it's, like, 15 
cents more expensive than E10.
    My guys are a lot of things, but wasteful of money is not 
one of them. The refiners own 20 percent of the ethanol market. 
Ethanol is here to stay. The notion that it won't be is just--
it's inconsistent with reality.
    Mr. Shimkus. The gentleman's time has----
    Mr. Barton. The last thing I will say, Mr. Chairman, I 
ought to be commended because the Barton Bill did not bring 
back MTBE, and if I really wanted to be competitive I would 
make it legal to----
    Mr. Shimkus. The gentleman's time definitely has expired.
    [Laughter.]
    The Chair recognizes the gentleman from California, Mr. 
Peters, for 5 minutes.
    Mr. Peters. Thank you. I want to thank Mr. Barton for his 
service but I also want to say I endorse the Barton Bill with a 
couple of amendments. I would also repeal all the tax credits 
that we have for energy and I would send a market signal that's 
technology neutral through a carbon tax.
    And we could--I know, so maybe the amendment--you know, I 
won't get your vote in the next Congress either, I know. But I 
think that would be the appropriate way to push these 
incentives.
    But for the time being, I wanted to talk to Ms. Skor. We 
have another witness who I think is on the next panel, Brooke 
Coleman, who is the executive director of the Advanced Biofuels 
Business Council.
    Her testimony includes the following and I would like you 
to react to this because you talk about backsliding. She says, 
quote, ``The RFS is indirectly to date a renewable octane 
cetane requirement. The 21st Century Transportation Fuels Act 
would phase out the renewability requirement and the greenhouse 
gas requirement contained in the RFS and, as discussed, all 
companies will use more petroleum additives instead of biofuels 
because it's in their economic self-interest.'' She goes on to 
explain how that's backsliding.
    Is that the concern you expressed and can you maybe flesh 
out a reaction to that?
    Ms. Skor. That's absolutely our concern.
    If you look at the price of ethanol today, if we are 
talking about price competitiveness today wholesale it sells 25 
cents lower per gallon than gasoline. But what you see is 
absent a mechanism to force competition and give the ethanol 
producer access to the end user, the consumer, we don't have a 
way to compete in this marketplace.
    The RFS provides important guardrails and not only for 
market access but for environmental impact. As Mr. Spurlock 
said, 43 percent reduction in greenhouse gas emission--that's 
with conventional biofuel. Advanced biofuel is up to 100 
percent.
    So we are cleaning the air because we've got fewer--and 
it's good for not only environmental health but human health as 
well.
    Mr. Peters. You recognize the bind the Government is in 
with the bill the way it is. What would be your suggestions 
about how to move?
    Ms. Skor. I mean, you know, our overall suggestion is that 
you couple--we absolutely applaud seeking a high-octane, low-
carbon national standard. But that's got to be coupled with the 
guardrails that we see in the Renewable Fuel Standard that 
provide for market access.
    That would be the path forward for the most significant 
cost savings, the greatest fuel economy, and the greatest 
environmental benefit.
    Mr. Peters. OK. Well, again, I think we are sort of in this 
contortion to respond to these markets and I think that, again, 
a market--a market incentive that's technology neutral is 
preferable to this. It could save us a lot of time and meetings 
next year.
    But I do appreciate you taking it up. I think there's more 
work to do on this. I know it's not easy, and I look forward to 
working with you in the next Congress.
    And I yield back.
    Mr. Shimkus. The Chair thanks the gentleman.
    The Chair now recognizes the gentleman from West Virginia, 
Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    Over the last number of years, we've talked a lot about and 
I've heard a lot of folks talk about the greenhouse gas 
emissions and how we need to address it through a variety of 
standards, regulations, or whatever.
    But this is a summary from the MIT study that says if you 
want to reduce greenhouse gas emissions it's six to fourteen 
times more effective if you put a gasoline tax on than worried 
about efficiencies.
    I've never heard any--here anyone ever, if they're really 
serious on the other side, talking about reducing greenhouse 
gases why they have not proposed raising the gasoline tax.
    Secondly, we've also talked around this table a lot about 
uncertainty. I am concerned about, for example, a small 
refinery trying to make the change, going to spending millions 
to convert to 95 or some other level of octane standards. But 
yet there's a movement coming from the other side of the aisle 
that within the next 10 years we are going to decarbonize our 
transportation fuels.
    I don't know whether to take them seriously or not. But I 
see it in the media as beating the drum every day that over the 
next 10 years the Green New Deal should be sweeping through 
Congress.
    It should be taken very seriously. So the uncertainty is 
that why would a small refinery or any refinery go out and 
spend billions of dollars--billions of dollars--to make a 
change in carbon fuels when in 10 years we are going to do away 
with them anyway?
    So I just--my question to you, to any of you, essentially 
is is it realistic to be thinking about this Green New Deal and 
all the effort that's been made in crafting this legislation 
that goes out the window if we are going to pass something 
within the next 10 years that does away with fuel?
    Starting with you--starting with you, how realistic is 
this? Is this some crackpot idea?
    Mr. Zimmer. Well, thank you.
    And, first of all, we think that going to a 95 RON regular 
is extremely important and very doable for the stakeholders as 
well as--and a value proposition to the consumer.
    So we think it is the only--the low-cost solution to 
improving the fuel efficiency of vehicles and it's broadly 
applied and it will impact a lot of----
    Mr. McKinley. If we are trying to eliminate greenhouse 
gases, why isn't someone promoting a gasoline tax because it's 
proven time and time again that that's going to be the quickest 
way to eliminate greenhouse gases? No one's doing that.
    So we are talking about a--I want to know more about what 
effect--we are going to see a lot of debate over the next 2 
years over this Green New Deal.
    Is it realistic to do away with fossil fuels in 
transportation, as they're calling for? I would like to hear 
from any one of you. I only have a minute left.
    Mr. Columbus. In the short term, sir, no. It's not going to 
happen in the short term, and I certainly commend Mr. Tonko and 
his colleagues for starting that conversation.
    There are a lot of things about EVs that have to be sorted 
out. There are a lot of things about EV recharging structures 
that have to be sorted out.
    I can remember many years ago people talking about we are 
going to have----
    Mr. McKinley. Could we have the other people answer as 
well, just--so yours is--it's not realistic.
    Mr. Spurlock.
    Mr. Spurlock. As we look at the news recently and we are 
talking about putting a high fuel tax on in order to improve 
greenhouse gas and cut the fuel down, I think if we look at 
what's happening in France, that's what they tried to do in 
France. That is not working very well publicly right now.
    Ms. Skor. Liquid fuels will remain the dominant fuel source 
for many years to come, and so what is realistic is to look for 
ways to provide automakers with greater fuel economy, consumers 
with cost savings, and cleaner air.
    So there is an important conversation to be had and a path 
forward in that regard.
    Mr. Cooper. It takes, roughly, 17, 18 years for the fleet 
to turn over, right. So every new vehicle being sold today, the 
overwhelming majority of which are internal-combustion-engine, 
liquid-fuel vehicles, are going to be around on the roads 
driving on liquid fuel for, you know, the better part of the 
next 20 years.
    It is going to take a long time to get to the electric 
vehicles and some of the ideas that are contemplated in a Green 
New Deal.
    So, you know, we think there's an immediate opportunity to 
help decarbonize that liquid fuel that's going to be used in 
that intervening period.
    Mr. Thompson. Yes. We firmly believe that fossil fuels and 
the internal combustion engine will be here for many decades to 
come.
    Mr. McKinley. Thank you.
    I guess what I am--my point is----
    Mr. Shimkus. Gentleman's time has----
    Mr. McKinley [continuing]. That I am worried about, Mr. 
Chairman, and as we close out on this is small refineries are 
going to be challenged under this. I just hope there's some 
language--something can be worked into your bill that takes 
care of the small refineries that gives them some protection as 
compared to the larger--the Marathons and the Mobils.
    Mr. Shimkus. We'll talk about that. The gentleman's time 
has expired.
    Mr. McKinley. Yield back.
    Mr. Shimkus. The Chair now recognizes the gentleman from 
Texas, Mr. Olson.
    Mr. Olson. I thank the chair.
    I would like to open my questions by saying congratulations 
to Chairman Shimkus, not only for this bill but this past 
Saturday his Army squeaked by my Navy in a football game in 
Philadelphia.
    Mr. Shimkus. I was being kind and didn't dig anything into 
you. So it's your mouth to God's ears, right?
    Mr. Olson. I said congratulations. Congratulations.
    Also congratulations to my Texas colleague, Bill Flores. 
You guys have done a lot of hard work to get this bill where it 
is right now--this discussion draft.
    It's too late for this to become law in this Congress. But 
the table has been set for real action in the 116th Congress, 
and thank you all for that.
    My first question is for you, Mr. Zimmer. In your testimony 
you mentioned that 95 RON is a, quote, ``fundamental enabler,'' 
end quote, for lower emissions. As someone who represents an 
area that's made great emissions progress--Houston, Texas 
area--and is making every effort right now to reduce emissions 
but are still in noncompliance.
    I know that vehicle emissions are critical to continuing 
this trend we see. My question is can you talk about what sort 
of environmental benefits we've seen from moving to 95 RON?
    Mr. Zimmer. Thank you for the question.
    We believe that 95 RON with engines that are designed to 
use it effectively, and it's that system that's very important, 
can achieve on average 3 percent fuel efficiency across the 
board and it's, you know, a broad spectrum of products. Doesn't 
matter who the manufacturer is or the architecture--we'll see 
that benefit.
    So we think it's--we think RON 95 is doable right now--it's 
the only thing that's really doable--and deliver that type of 
result.
    It also--you will find a lot of internal combustion engines 
are used in hybrids and plug-in hybrids. Those vehicles will 
also benefit from that efficiency improvement.
    Mr. Olson. Good point.
    Question for you, Mr. Columbus, and I want to first off 
thank you. You hosted me at a Stripes store at the Westpark 
Tollway in Texas 22 a couple weeks ago, or a couple years ago, 
actually.
    I worked the cash register. I rolled out the worst 
tortillas ever in American history--terrible, terrible, 
terrible--and I also pumped E10 gasoline.
    And so most Americans have no idea at the pump what we are 
talking about today. They just hear the word ethanol and see it 
on the gas tank but have no implications--no idea what 
implies--happens to their whole vehicle system with this in the 
product.
    They know what ethanol is but all they want is for their 
car to work and their fuel to be affordable prices. So I am 
always concerned about issues with misfueling and our policies 
can make the lives of average Americans easier.
    Can you talk--in your opening statement you had some 
comments about issues with misfueling. How about more details 
on what you see at your stores with misfueling challenges with 
E15 today and how these new challenges, going forward, may 
impact the price at the pump and also just the perception of 
people that are paying for the gasoline?
    Mr. Columbus. OK. With respect to E15, as you're aware, in 
many areas of the country we can only sell it 8 months a year 
because of the ozone season. So in that sense, the products had 
a very hard time catching on, going forward.
    There are many retailers who do not have the facilities at 
their retail outlets to sell anything more than E10. The 
Environmental Protection Agency requires a retailer to be able 
to demonstrate on an affirmative basis that his dispensing and 
storage equipment is compatible with whatever's in the ground 
with the product.
    So having said that, our experience is that, very simply, 
consumers want the lowest cost motor fuel they can put their 
hands on on which their cars will run.
    In my comments, I said as long as people are aware this car 
is warranted up to E15--this car is warranted up to E20, 
whatever--as long as those levels are posted at the retail 
outlet, the overwhelming preponderance of consumers take their 
own self-interest into account and fuel properly.
    There are those for whom I have no help. I cannot help 
people who put gasoline in a diesel engine. I cannot help 
people who see a big sign that says, this car has to be used 
for something--don't use this fuel for anything before 2001 
model year and pump it into my 1987 car.
    If I do that, it's my fault. It's not the retailer's. But I 
believe that low-cost provider still wins in the retail market. 
I think it would----
    Mr. Olson. Time to yield back?
    Mr. Shimkus. The gentleman's time has expired.
    Mr. Olson. Congratulations, Mr. Chairman.
    Mr. Shimkus. Thank you very much.
    Mr. Olson. Three years in a row.
    Mr. Shimkus. A little streak.
    The Chair now recognizes the gentleman--the other gentleman 
from Texas, Mr. Flores, for 5 minutes.
    Mr. Flores. Thank you, Chairman. I appreciate--again, I 
appreciate all of you participating in this hearing today.
    So I have--let me start with one question for each of you 
and that is you got two options. One is keep the status quo the 
way it is today. Make no changes. Let the regulatory agencies 
sort out how CAFE is going to work, how the emissions 
requirements are going to work, and how the RFS is going to 
work.
    So that's option A. Option B is let's come up with a 
statutory solution to fix this. So which do you prefer, Mr. 
Zimmer? Option A or option B?
    Mr. Zimmer. B.
    Mr. Flores. Mr. Columbus.
    Mr. Columbus. There are things in this bill that my clients 
support. There are things in this bill that my clients do not 
support. So I can't really choose today. I got to see that 
final product.
    Mr. Flores. I understand that. But do you--in the absence 
of----
    Mr. Columbus. There are things in the fuel system that are 
broken, Mr. Flores. So if you say is improvement possible, the 
answer is yes.
    Mr. Flores. OK. Good. That's close enough.
    Mr. Spurlock.
    Mr. Spurlock. I would agree with Mr. Columbus. There are 
things that can be improved and need to be improved and look 
through all levels as we go with that direction.
    Mr. Flores. OK.
    Ms. Skor.
    Ms. Skor. I would say that improvements need to be made on 
the administration side--the implementation of the Renewable 
Fuel Standard currently on the books.
    Mr. Flores. OK. Do you believe that the EPA has sufficient 
statutory authority to do the things that you'd like to do 
without litigation?
    Ms. Skor. We do, and reed vapor pressure is a very good 
example of something that's within the EPA's ability to make it 
happen.
    Mr. Flores. Mr. Cooper.
    Mr. Cooper. I would agree that certainly there are things 
that could be improved with the current program but we agree 
that EPA does have the administrative authority to make those 
fixes.
    In fact, they have the administrative authority to adopt an 
octane----
    Mr. Flores. So are you and Ms. Skor saying that no 
statutory solution is the preferred outcome? Is that what I am 
hearing from you?
    Mr. Cooper. If the--if option B is the draft currently----
    Mr. Flores. That's not what I asked. I mean, option B is 
does a--is a statutory solution going to be a better solution 
than relying on the uncertainty that currently exists with the 
law and the administrative structure of that?
    Mr. Cooper. I think it depends on what that statutory 
solution is.
    Mr. Flores. OK. All right.
    Mr. Thompson.
    Mr. Thompson. Yes. We support legislative reform of the 
RFS.
    Mr. Flores. OK. Well, every roundtable we've had and almost 
in every hearing we've had virtually every one of you has 
always said the statutory solution is better.
    And so that's the reason we need to stay engaged on this 
rather than trying to run to--as you heard earlier, run to our 
respective foxholes and not get anything done.
    Mr. Columbus, one of the things that has been claimed is 
that the consumer doesn't really control the cost of gasoline. 
I mean, can you--can you address that?
    For instance, if the cost of gasoline--if the cost of 
liquid fuel is artificially raised doesn't the consumer have a 
say on what the price is going to be by lowering their demand 
for that product?
    Mr. Columbus. I think the short answer to that is 
absolutely.
    First of all, I don't know how you artificially raise the 
motor fuel price. If we knew how to do that, I am telling you 
we would have done it a long time ago.
    I always laugh about the prices signs. But this is the most 
transparent commodities market on the face of the earth.
    Mr. Flores. So at the end of the day, the committee----
    Mr. Columbus. So it drives price down every day to the 
lowest level, to the level the low-cost provider is prepared to 
sell it.
    Mr. Flores. So if we are talking about increasing octane, 
the consumer is going to revolt if the refining--if the 
suppliers elect anything other than the lowest cost solution. 
Would you agree with that?
    Mr. Columbus. Totally. I promise you they will vote with 
their feet.
    Mr. Flores. OK. So there's no incentive for Mr. Thompson or 
his constituents to suddenly come up with a nonoptimum solution 
that the consumers are going to revolt against.
    Mr. Columbus. I believe that's true and, more importantly, 
as those consumers vote with their feet those companies' 
shareholders will vote with their lawyers. So, I mean, they 
have an obligation to maximize profit and don't do that by 
selling a high-cost product in a low-price market.
    Mr. Flores. OK.
    Ms. Skor, I am going to go over a few provisions of the 
draft legislation. Would you please answer two questions on 
each of these?
    Number one, the ethanol industry has asked the EPA to take 
administrative action on and, number two, which of these 
provisions do you anticipate the EPA can accomplish through 
rulemaking without legal challenge?
    The first one is can the EPA require all vehicles beginning 
in 2023 to use high-octane fuels. Have you--have you asked the 
EPA to do that?
    Ms. Skor. We have asked the EPA to certify and approve 
higher level ethanol blends with a specific date in mind, no, 
we have done that.
    Mr. Flores. And can they accomplish that without legal 
challenge?
    Ms. Skor. Yes. We believe EPA has the ability to set--EPA 
has the ability to put in place a 95 RON national standard 
fuel.
    Mr. Flores. I would assert that that's probably not going 
to be the case.
    That said, I have other questions for you. I will 
supplementally provide those to you and ask you to 
supplementally answer those.
    Thank you. I yield back.
    Ms. Skor. Thank you.
    Mr. Shimkus. The gentleman yields back his time. The Chair 
now recognizes the gentleman from Michigan for 5 minutes.
    Mr. Walberg. Thank you, Mr. Chairman, and thank you for 
holding this subcommittee hearing today and for working 
continuously to address the issues with the RFS.
    I know it's something that you and Mr. Flores have worked 
on for some time and you have held numerous round tables and 
hearings on this issue and heard from all parties involved 
numerous times and I, for one, would like to see this issue is 
finally resolved but in ways that I and my constituents would 
like them to be resolved.
    It's no secret that I am an avid Harley rider and any 
vehicle with an engine between two wheels. I am also the 
cochair of the Congressional Motorcycle Caucus, and I have 
concerns there as well.
    I also have the pleasure of representing the Great Lakes 
State of Michigan, which is surrounded by most of the 20 
percent of the world's fresh water resources and filled with 
boating enthusiasts all around that State and connected to 
other States as well.
    So they have obvious reasons to be concerned about fuel in 
their engines and motors as well. Michigan is also the 
birthplace of the modern auto industry and continues to be very 
much concerned in that area with a lot of research and 
development.
    It's also the place that is very much given to antique and 
classic vehicles, one being my own, which has great concerns 
about continuing and not just being put on a shelf somewhere 
and looked at but, rather, driven, used, continue to be used.
    And so, Mr. Zimmer, with those statements I would like to 
ask you a question and then open it up to any others who would 
address it, though maybe out of your purview.
    This question--how will this current draft legislation 
impact small engine manufacturers like Harley Davidson and the 
boating industry--Evinrude, Mercury, et cetera--and the classic 
and antique vehicles as well?
    Mr. Zimmer. I can't speak to those specific industries but 
I do think and I think our members believe that, you know, in 
this collaborative approach they should be--come to the table 
in here and have those inputs because, you know, I understand 
that there are different issues in those engines and those 
markets than we might have in the automobile industry.
    But just to reiterate, we believe the 95 RON is extremely 
important to the automakers will enable--improve fuel 
efficiency in a broad range of products.
    Mr. Walberg. Anyone else want to----
    Mr. Thompson. Let me add that--just to be clear that under 
this draft legislation the 95 RON fuel would be developed, you 
know, to be used with a new automobile fleet.
    It would add--either replace premium or add another grade 
of fuel to the mix. It would not impact our ability to deliver 
regular grade gasoline. Hopefully, you know, E0 for boaters and 
motorcyclists.
    So we will continue to supply that very important market.
    Mr. Walberg. Certainly--certainly at a higher cost but it 
needs to be there.
    Mr. Zimmer, you mentioned that misfueling devices beyond 
nozzle size are available. What are those and should they be 
required?
    Mr. Zimmer. It's a very, very important topic to the car 
makers--misfueling in this area, and historically we've 
addressed--when we went to unleaded we addressed misfueling 
with nozzle sizes and that's in the current proposal.
    This is--this can be--I think it's quite complex because of 
the--in the retail market and I think the retailers could talk 
about the multiuse pumps and stuff like that. But we think 
there is technology out there that might be, you know, very 
robust in this area and we would encourage, you know, an in-
depth discussion there and that's basically communications 
between fueling pump and the vehicle and we think that's 
probably something that's doable. We think it's probably a good 
option and we would encourage people to look at them. We'd be 
very happy to work with----
    Mr. Walberg. Require a lot of flexibility and then 
consideration of defeat devices also?
    Mr. Zimmer. Excuse me?
    Mr. Walberg. I would assume it would require a lot of 
flexibility and then syncing up an understanding with the 
defeat devices that could be a part of the problem.
    Mr. Columbus. Yes, sir, and the discussion draft addresses 
that and we would endorse that. In fact, a group of us have 
been working on misfueling prevention for a while and that 
includes the autos, retailers, to jobbers.
    I think there's probably a way through this. The question 
is cost. The equipment manufacturers have indicated to us a 
cost of something under $300 per pump for a multiproduct 
dispenser that dispenses all three products or four products, 
whatever, through a single hose. That's it.
    But this is addressable, I believe, and one of the things 
we are holding off on is--I know what Gilbarco has told us. I 
want to actually see it. I want to see an invoice.
    Mr. Walberg. Thank you. I yield back.
    Mr. Shimkus. Gentleman's time has expired.
    The Chair now recognizes the gentleman from Georgia, Mr. 
Carter, for 5 minutes.
    Mr. Carter. Thank you, Mr. Chairman, and thank all of you 
for being here. This is certainly an important subject, 
something that we've talked about before. Some of you have been 
here before.
    Mr. Cooper, I haven't heard much from you so I wanted to 
start with you today and ask you a question.
    First of all, full disclosure. I represent the entire coast 
of Georgia, over a hundred miles of coastline. Therefore, 
marine engines are extremely important to us and the impact 
that some of these fuels have on--the negative impact that some 
of them can have on marine engines are certainly of interest 
and certainly of concern.
    Biobutanol--as I understand it, it has properties that more 
closely align with gasoline than ethanol does and it has much 
less--I am sure much less of a negative impact on engines.
    And, in fact, the National Marine Manufacturers Association 
and the American Boat and Yacht Council did a 5-year study with 
the Department of Energy and found out that--they studied the 
properties of isobutanol fuels on engines and that was very 
helpful for all of us.
    Just wanted to ask you, if biobutanol were widely available 
in the market, how would it fit into the current supply? How 
would we be able to incorporate it?
    Mr. Cooper. Well, thank you for the question, and I guess 
the first thing I would say is, you know, first of all, E10--10 
percent ethanol blends--are approved and warrantied for all 
off-road engines today including outboard marine engines and 
motorcycles. So the fuel that is most common in the marketplace 
today is absolutely fine for use in outboard engines and marine 
applications.
    In terms of biobutanol, you know, certainly, we do see some 
promise there. We have some member companies who are either 
producing or very interested in producing biobutanol along with 
ethanol.
    So yes, I mean, I think there are other molecules, other 
applications, other biofuels that at higher blend levels could 
be suitable for today's----
    Mr. Carter. Are there any obstacles for the companies that 
want to market this? Are they having any barriers they're 
having to overcome?
    Mr. Cooper. Primarily cost, today.
    Mr. Carter. Is that right?
    Mr. Cooper. I mean, you can't--biobutanol just can't 
compete with ethanol and other components in terms of 
production costs.
    Mr. Carter. How much of a difference are we talking about?
    Mr. Cooper. I would have to get back to you on that.
    Mr. Carter. Is it significant enough to where it's----
    Mr. Cooper. I think it's significant enough that we are not 
seeing widespread adoption of biobutanol today.
    Mr. Carter. OK.
    Mr. Thompson, I will go to you. As I understand it, 95 
octane is the correct octane level. In fact, you mentioned in 
your testimony that the ideal level was 95 for maximizing 
output of vehicles.
    How did you arrive at that? How did you arrive at the 95 
octane being the maximum level?
    Mr. Thompson. Thank you for the question.
    You know, this is the conclusion we reached with working 
with several stakeholders but with--really, with USCAR and 
others where we got technical expertise from the refineries and 
from the autos and, frankly, they worked for almost 2 years 
exploring a lot of things and looking at the whole system cost.
    If you were looking to get a three to four improvement--
efficiency improvement out of the autos, what would be the 
cheapest way for consumers to get there, either all the 
improvements from the auto side or all the improvements coming 
from fuel, and this is documented in my testimony before this 
committee in April, but we did simply a cost analysis and what 
we found is that the cheapest way to get that 3 to 4 percent 
efficiency improvement came from 95 RON.
    The other part of this was one of the big factors was 
making sure whatever we selected, according to the autos and 
rightfully so, the fuel had to be available on day one and had 
to be available nationwide.
    Anything other than 95 RON is not available nationwide. 
California and nine other States, you know, prohibit higher 
levels of octane.
    Mr. Carter. So you couldn't go to 97 in California?
    Mr. Thompson. Under their predictive model our conclusion 
was no.
    Mr. Carter. OK. OK. Well, thank you for that.
    One other question just to follow up. Does your 
organization have any specific numbers on how gas mileage would 
improve for customers across the U.S.?
    Mr. Thompson. Well, again, a couple things. One, it would 
be a 3 to 4 percent improvement--efficiency improvement--and 
that translates into gas miles.
    And the other thing it's for those who--it's equivalent to 
putting 720,000 electric vehicles on the road year after year 
after year. So there's a substantial improvement--efficiency 
improvement by doing this.
    Mr. Carter. I suspect that would--that would be hard to 
sell to a consumer who just concentrates on price?
    Mr. Thompson. I would hope--I would hope we would have a 
good story to tell. This is--would be a high-efficiency fuel 
that helps make their cars more efficient, it keeps 
optionality. It allows them to choose an internal combustion 
engine that's more efficient over, say, electrified vehicle 
they may not want.
    I mean, I think the consumer, when they fully understand 
the offering, will be supportive.
    Mr. Carter. Great. My time has ended and I yield.
    Mr. Shimkus. The gentleman yields back.
    Waiving on to the committee as he has in the past, Mr. 
Loebsack from Iowa, for 5 minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I really do appreciate 
you allowing me to waive on. You have been very generous, and 
especially knowing that we don't necessarily agree on these 
issues.
    So I really appreciate that a lot. We don't agree on the 
outcome of the football game either, since I have a stepson and 
his wife who are Naval Academy grads. But for me--for me, the 
only surprise was the margin--that it wasn't greater.
    But at any rate, to the panel I do appreciate your being 
here. In some ways, it's deja vu all over again because many of 
you have been here before.
    Mr. Cooper, welcome. I know Bob did a great job, but you're 
going to do a fantastic job as well. Thank you for taking over 
that position.
    Look, folks, we know that the RFS was created to diversify 
America's liquid fuel market, grow our world economy, and cut 
harmful emissions and it has succeeded in those efforts.
    I don't think there's any question about that at all. The 
RFS has helped America achieve greater energy security. It's 
decreased our reliance on foreign oil.
    My Marine kids perhaps don't have to go fight wars because 
of that in the future, hopefully, and that has, in turn, 
protected our national security.
    Fuels have lower cost at the pump and in Iowa and other 
parts of the Midwest the RFS has clearly been an economic 
driver--that's indisputable--creating thousands of good-paying 
jobs at biofuels plants and establishing a significant market 
for our farmers. Very important now, especially given our trade 
issues that we see happening to our farmers.
    We need to be looking toward growth in the future instead 
of taking steps backwards. This has been a very tumultuous year 
for biofuels producers and farmers.
    We know that the EPA has granted waivers to 48 refiners 
that have cut more than 2 billion gallons of biofuels out of 
the market with no plan to reinstate those gallons, and that's 
unfortunate, to say the least.
    This sort of action destabilizes the agricultural economy 
and that has implications for years to come and, again, we have 
to be thinking about the trade disputes, too, when we talked 
about these issues because that just complicates it for these 
farmers and others in the Midwest.
    Instability has led to biofuels plants across the country 
being idled, in at least one case closed permanently. The USDA 
reported net farm income is down again over 12 percent this 
year and the ag economy is suffering, and we cannot afford, I 
believe, to take a step in the wrong direction.
    And so respectfully, Mr. Chair, I do believe that this 
draft legislation is a step in the wrong direction for rural 
America and for the RFS.
    It was already mentioned the EIA released a study last 
month that a nationwide 95 RON fuel can be achieved through 
petroleum products and would not guarantee the use of more 
biofuels.
    I would like you to respond to that. You already did a 
little bit. Maybe expand a little bit on your answer to Mr. 
Thompson on that.
    The fact of the matter is we have to be very thoughtful 
about this, going forward. We have to make sure that whatever 
we do does not harm the biofuels market I think here in this 
country.
    I appreciate everyone's responses to the questions here. 
But I do want to start out with Ms. Skor by just basically 
answering the question would a 95 RON standard increase or 
decrease the use of biofuels.
    Ms. Skor. Made with a 10 percent ethanol blend it would 
most assuredly increase the price of fuel for American drivers.
    Mr. Loebsack. Right.
    And Mr. Cooper, would you like to elaborate a little bit? I 
don't know if you have more to say about your response to Mr. 
Thompson about the----
    Mr. Cooper. Well, you know, I think, again, some of the key 
points that came out of that study for us and it was 
commissioned by EIA but it was conducted by Baker & O'Brien, 
which is a well-known consulting firm that does lots of work 
for the oil industry. So these guys know what they're talking 
about.
    And a few of the key points that really rose to the surface 
for us was that, you know, there wouldn't be hardly any 
incremental increase in the cost of producing 95 RON at the 
existing fleet of refineries to meet a 95 RON requirement in 
the first year of the program, 2023, but also longer term.
    You know, it just said there wouldn't really be a need to 
increase ethanol blending at all to meet that requirement.
    Mr. Loebsack. Did you want to respond to the Barton Bill? 
Because it looked like you had some issues with that.
    Mr. Cooper. Well, I mean, we supported the first Barton 
Bill, right--the original RFS--and I just--you know, I don't 
remember exactly all the points that he was making.
    But, you know, we certainly see the RFS as a tremendous 
success, both the original program, the RFS2. We see absolutely 
no reason to walk away from that progress. And again, we think 
a high-octane fuel standard can layer very well on top of the 
RFS and those two programs could work in harmony.
    Mr. Loebsack. And I do want to make sure that, you know, we 
hold this administration's feet to the fire too on its promise 
to have the EPA go ahead and write rules, obviously, that allow 
the 15-year round.
    I think it's really important. I hope it wasn't just a 
campaign stop, if you will, on the part of the president at 
Council Bluffs, you know, for a Republican congressional 
candidate and a Republican gubernatorial candidate.
    We've got to make sure that we--you know, that we do hold 
their feet to the fire on that.
    So thanks, everybody, for being here. I really appreciate 
it, and I have lots more questions but I am sure I will have 
more opportunities in the future.
    Thank you, Mr. Chair.
    Mr. Shimkus. The gentleman returns the time and the Chair 
wants to thank the panel. You did not disappoint. Obviously, 
there's much more work to do and I gladly will turn this over, 
hopefully, to Mr. Tonko in the next Congress to accept the 
challenge of moving forward.
    I will just say certainty is better than uncertainty. 
Marrying engineering technologies of engines and fuels for the 
greatest efficiencies is the way to go.
    So I hope that that would be at least a base by which 
people would move forward.
    With that, I want to dismiss this panel and sit the second 
panel.
    [Pause.]
    Mr. Shimkus. OK, folks. Let's move out of the room so we 
can get started.
    We want to thank our witnesses for being here today and 
taking the time to testify before the subcommittee. As you 
observed, it's still a very energetic discussion, questions and 
answers, and we would expect no less from this panel either.
    Today's witnesses will have the opportunity to give opening 
statements followed by a round of questions from Members, and I 
will introduce you as I call you to testify.
    And we would like to start with Mr. Brooke Coleman, 
executive director at Advanced Biofuels Business Council.
    Brooke, you're recognized for 5 minutes. Welcome.

  STATEMENTS OF BROOKE COLEMAN, EXECUTIVE DIRECTOR, ADVANCED 
BIOFUELS BUSINESS COUNCIL; MICHAEL MCADAMS, PRESIDENT, ADVANCED 
   BIOFUELS ASSOCIATION; MANNING FERACI, DIRECTOR OF FEDERAL 
 AFFAIRS, COALITION FOR RENEWABLE NATURAL GAS; DAVID FIALKOV, 
VICE PRESIDENT, GOVERNMENT RELATIONS/LEGISLATIVE AND REGULATORY 
  COUNSEL, NATIONAL ASSOCIATION OF TRUCKSTOP OWNERS; AND KURT 
KOVARIK, VICE PRESIDENT OF FEDERAL AFFAIRS, NATIONAL BIODIESEL 
                             BOARD

                  STATEMENT OF BROOKE COLEMAN

    Mr. Coleman. Thank you. Thank you. Still good morning, I 
think.
    Chairman Shimkus, Ranking Member Tonko, members of the 
subcommittee, my name is Brooke Coleman. I am the executive 
director of the Advanced biofuel Business Council.
    We represent worldwide leaders in the effort to develop and 
commercialize cellulosic biofuel ranging from cellulosic 
ethanol made from agricultural residues to advanced biofuel 
made from sustainable energy crops and municipal solid waste.
    Let me start by thanking the committee and staff for 
deliberating what we know is a tough issue--the Renewable Fuels 
Standard--and more generally, the need to curb or at least 
bring competition to the pump with regard to fossil fuels.
    The RFS is a political lightning rod not because it is 
flawed. Rather, because it is creating competition that 
incumbents do not want to see and drives the growth of now the 
largest renewable energy sector in the country.
    The RFS pertains to the industry I represent, the 
cellulosic biofuels industry. An underpinning of the political 
case against the RFS is the allegation that we have failed to 
deliver on the promise of cellulosic biofuels.
    What has actually happened over the last 10 years as our 
industry has gone from the technological development phase to 
the commercial deployment phase, as promised.
    But in order to build plants and scale the RFS must be 
enforced and in many recent years the RFS was not enforced at 
all. In other years, billions of gallons were unlawfully waived 
in reaching oil refiners large and small at the expense of 
rural America.
    This level of unpredictability pushes innovators outside of 
the country and that's what has happened as we watch China, 
Brazil, Canada, even Romania and other countries now beat us to 
the punch on cellulosic biofuel development.
     So what's the solution? I think it's a fair question. 
While we appreciate the committee's work in trying to find one, 
we cannot support this particular one as constructed.
    There are two primary pieces to successful biofuels 
deployment. The impetus to produce the fuel on the front end 
and the ability for consumers to access it on the back end. The 
RFS does both at the same time.
    It encourages production by requiring blending and it 
enforces a RIN system on the back that rewards those who make 
investment to deliver more biofuel to the consumer. It's a very 
simple system.
    The discussion draft more explicitly requires market 
readiness for biofuels as it relates to vehicles, fuel 
dispensers, and important regulatory updates like RVP.
    That's a good thing. But it offers explicit market 
readiness at the expense of the upstream policy that would 
allow more biofuels to flow through updated hoses and 
regulations and into vehicles.
    Ideally, a free market provides the impetus to produce 
biofuels. But as we have seen for decades with ethanol, beating 
the incumbent on price does not guarantee demand because motor 
fuel markets are not free markets.
    Replacing the cure for this problem in the RFS with an 
octane standard is the equivalent of an open invitation for the 
oil industry to use less biofuel and increase carbon emissions 
in the process.
    Earlier this month, the EIA on a report that we have talked 
about already, confirmed what the oil industry has previously 
admitted--that a 95 RON standard could be easily met with 
minimal refinery upgrades.
    The truth is--and we haven't talked about this--we have 
done this before. The oxygen standard enacted in 1990 was a so-
called performance based fuel quality standard. It was supposed 
to drive demand for ethanol based on its superior fuel 
characteristics including price.
    It didn't, because the oil industry prefers to control the 
entire motor fuel gallon by purchasing octane from themselves.
    So instead of ethanol we got MTB, a fuel additive that 
polluted America's drinking water and had some small towns 
trucking drinking water into local schools.
    Unfortunately, the discussion draft offers a similar 
dynamic as it pertains to advanced biofuels. The act would 
establish a more automated system when it comes to setting and 
enforcing advanced biofuels standards.
    In theory, this system would provide more predictability 
for innovators. That is a good thing.
    But it offers predictability by tying the volume standard 
to the actual production in the prior year. The problem with 
setting the cellulosic biofuel standard based on prior year 
production is it puts the growth trajectory of cellulosic 
biofuels into the hands of our competitors in the oil industry.
    This is true, because in order to secure investment to 
build capacity our industry has to be able to show likelihood 
of demand. In the absence of a free market and within RFS phase 
out, we would have to show some sort of commitment form the oil 
industry to buy cellulosic biofuel. If the oil industry knows 
it can control the cellulosic biofuel to secure financing, the 
oil industry knows it can control cellulosic biofuel 
development by avoiding those commitments and that Federal law 
now rewards that behavior with greater market control. That's 
what they will do.
    We continue to believe that the solution here is not 
legislative. There is already an administrative effort underway 
to address RVP. We can do many of the things to create 
certainty from a forecasting perspective inside of existing 
law.
    We appreciate the opportunity to be here today.
    [The prepared statement of Mr. Coleman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores [presiding]. Mr. McAdams, you're recognized for 
5 minutes.

                  STATEMENT OF MICHAEL MCADAMS

    Mr. McAdams. Chairman Flores, Ranking Member Tonko, 
Congressman Olson, Chairman Shimkus, I am delighted to once 
again appear before you to testify on the importance of Federal 
policy in furthering the development of next generation 
sustainable renewable fuels.
    On behalf of the membership of the Advanced Biofuels 
Association, I want to personally thank Chairman Shimkus and 
Congressman Flores for your courage and leadership in providing 
an RFS draft reform package.
    The countless hours that Members on both sides of the aisle 
have spent attempting to craft a middle ground to update and 
revise the focus of the delivery of second generation advanced 
fuels is long overdue.
    In spite of the best intentions, it is clear that the 
current statute needs updating if we are to enable the 
technologies to move forward and produce the volume of fuels 
which were envisioned by the original authors of the law.
     That renewed focus is particularly relevant, given the 
recent release by the administration's warning on the impacts 
of climate change and the containment of the most destructive 
wildfire in California's history.
    In addition to continued growth in aviation, which is 
currently doubling every 15 years, along with the new global 
carbon targets for international airlines, will drive the need 
for these fuels, moving forward.
    These advanced fuels will provide an alternative to higher 
carbon fuels in our future, as noted by the Government's recent 
climate report. However, as I've testified before, there are 
numerous barriers to entry under the current RFS program that 
specifically disadvantage advanced biofuels.
    My written testimony goes into specific recommendations in 
more detail. Previously, I provided you 21 of them. But I would 
like to highlight a few potential reforms as well as some--
offer some comments on the recent draft bill introduced by 
Congressman Shimkus and Congressman Flores.
    First and foremost, if you consider making changes to the 
RFS, we would urge Congress to take the politics out of the 
equation as much as possible by making the RFS a rules-based 
system.
    Therefore, we support the provision in this bill that would 
base the annual RVO on the previous year's actual production, 
queuing up midyear and end-year volumes, which would set the 
RVO for the future and that would thereby set a mandate for the 
obligated parties.
    This would reduce volatility in the RIN market, diminish 
the need for cellulosic waivers for fuels which do not exist, 
and encourage obligated parties to buy available produced 
gallons for the RINs.
    Any reform to the RFS should also expand the definition for 
what constitutes renewable biomass and allow feedstocks to 
comply on a mass balance basis rather than imposing burdensome 
mapping restrictions on those feedstocks.
    Naturally regenerative trees under sustainable forest 
management practices should be available for use under this 
program. Currently, they are not.
    We are long past due to have a plant-a-tree pathway 
promised by EPA years ago. The Shimkus-Flores bill takes an 
important step in this direction by redefining renewable 
biomass to include trees and tree residues, paving the way for 
increased deployment of pyrolysis and other technologies.
    By the way, the three current cellulosic plants being in 
the United States, which we represent, are all pyrolysis 
technologies.
    We support the bill's efforts to pivot the focus on the 
development of fuels of the future by providing some regulatory 
certainty for the advanced and cellulosic biofuels and 
biodiesel through 2032 or longer. We recommend you look at the 
length of the average debt financing, which is 20 years, in 
lieu of 2032.
     This time frame is consistent with the standard of the 
debt term. The steps which you have taken in your draft bill at 
a minimum will send a strong signal to the financial 
institutions that the Federal Government supports the 
development of these fuels in the future by guaranteeing the 
rent over a longer time frame.
    We also suggest you encourage EPA to address the 
biointermediate issue in the upcoming reset rules proposed this 
year. Currently, three of our members who are building plants 
would not get a rent unless this problem is resolved.
    I attached a list of other specific recommendations for 
your consideration, which I believe would all fall under the 
title of common sense, which will require statutory changes in 
order to allow EPA to make this program more economically and 
administratively efficient.
    Again, on behalf of all of our members, we want to thank 
you for your leadership and urge the members of this committee 
to seriously consider making the reform of this program a 
priority in the coming year.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Mr. McAdams follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores. Thank you, Mr. McAdams. I think we can all 
agree on having commonsense titles in our bills. It's a good 
start.
    Mr. Feraci, you're recognized for 5 minutes for your 
opening comments.

                  STATEMENT OF MANNING FERACI

    Mr. Feraci. Thank you, Mr. Chairman.
    Chairman Shimkus, Ranking Member Tonko, members of the 
subcommittee, I appreciate having the opportunity to testify 
today on behalf of the Coalition for Renewable Natural Gas.
    Renewable natural gas, or RNG, is derived from biogas 
captured from organic waste streams at landfills, wastewater 
treatment facilities, and from anaerobic digestion of 
agricultural waste.
    The captured biogas is refined to meet fuel quality 
standards that make RNG indistinguishable from natural gas. The 
fuel is fully fungible in our Nation's existing infrastructure 
and can be readily used in natural gas vehicles.
    More than 25 percent of the Nation's medium and heavy duty 
natural gas vehicles are fuelled by RNG. RNG qualifies as a 
cellulosic biofuel under the Renewable Fuels Standard. It 
reduces life cycle greenhouse gas emissions by 80 percent or 
more compared to the conventional diesel fuel.
    In fact, the RNG industry provides more than 95 percent of 
the fuel used to meet the program's cellulosic biofuel 
requirements today.
    The production and use of RNG has grown significantly since 
it was included in 2014 as a cellulosic biofuel. The industry 
has developed over 45 production facilities and there are over 
50 projects currently under construction or consideration.
    RNG production for transportation fuel grew from 
approximately 33 million ethanol equivalent gallons in 2014 to 
240 million gallons in 2017. That's more than a 620 percent 
increase in the 3-year period.
    This growth has put the industry on track to exceed EPA's 
production estimate from 2018. Each RNG project averages--on 
average creates 173 direct or indirect jobs and attracts 
between $10 million and $70 million in capital investment.
    In sum, the RFS has resulted in a growing vibrant domestic 
RNG industry that is converting waste into growing volumes of 
domestically produced cellulosic biofuel that is good for the 
environment, and that sounds like a winning policy to us.
    As I mentioned earlier, the RNG Coalition is pleased to 
provide initial feedback on the discussion draft. The RFS is a 
complicated multifaceted program and statutory changes should 
be carefully vetted, given the impact they can have on 
stakeholders who have made significant capital investments.
    The RNG Coalition recognizes the subcommittee's diligence 
in looking at this issue. The RNG industry supports the RFS 
program as a way to increase domestic production and use of 
advanced biofuels and, in turn, address the Nation's energy and 
environmental policy objectives.
    This methodology used to set volume obligations under the 
RFS program should be consistent with this approach. Volume 
targets, going forward, should be realistic and attainable. 
They should also be structured in a way to encourage steady 
growth of advanced biofuel production.
    Under current law, the RFS program does not lapse. Beyond 
2022, the EPA administrator sets the program's volumes based on 
six statutory factors. The discussion draft would sunset the 
RFS program for advanced biofuels after 2032.
    RNG projects require significant capital investment and 
deployment in new infrastructure. They often involve a 20-year 
offtake agreement with feedstock providers.
    A long-term RFS program provides a policy framework that 
attracts that capital needed to develop new RNG projects. 
Conversely, a premature sunset of the RFS program's advanced 
biofuels requirements could chill investment in new RNG 
projects, which could undermine the overall policy objectives 
of the RFS program.
    The discussion draft would also modify how the volume 
targets for advanced biofuels are set. It would use the 
previous year's production levels--production data to set 
annual use requirements for advanced biofuels.
    While the RNG Coalition recognizes the desire to provide 
certainty in the volume setting process, this approach could 
have the unintended consequence of causing advanced biofuel 
production to stagnate or potentially contract.
    The RNG Coalition wants the RFS program structured in a way 
that promotes steady sustainable growth in the advanced 
biofuels marketplace.
    Mr. Chairman, Chairman Shimkus, Ranking Member Tonko, 
again, I appreciate the opportunity to testify. The RNG 
Coalition recognizes the hard work and effort that this 
subcommittee had made to tackle what is admittedly a very, very 
difficult issue.
    There are significant benefits associated with the expanded 
domestic production and use of RNG, and we remain willing to 
work constructively with you going forward to achieve the RFS 
program's worthwhile policy goals, and I would be happy to 
answer any questions you may have.
    [The prepared statement of Mr. Feraci follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores. Thank you.
    Mr. Fialkov, you're recognized for 5 minutes for your 
opening comments.

                   STATEMENT OF DAVID FIALKOV

    Mr. Fialkov. Good morning, Mr. Chairman.
    Chairman Shimkus, Ranking Member Tonko, thank you very much 
for inviting me to testify today. It's really a privilege to be 
here with you.
    My name is David Fialkov. I am the VP of government 
relations at NATSO, which is a national trade association 
representing really off-highway fuel retailers from large 
multibillion-dollar travel center and truckstop chains to 
smaller independent single-store mom and pop type operators.
    Most of our members sell gasoline. Many of them blend 
ethanol. My testimony this morning, however, will focus 
primarily on diesel markets and opportunities for Congress to 
incentivize diesel retailers to incorporate increasing amounts 
of advanced biofuels such as biodiesel into the Nation's diesel 
fuel supply.
    The RFS, which this bill would reform, has largely been 
successful in doing this. Over the last decade, for example, 
biodiesel and grown tremendously and the reason for that is 
that the RFS creates a mechanism whereby diesel retailers can 
offer fuel to truck drivers for less money the more biodiesel 
that they incorporate into the their fuel supply and that's 
really a fundamental component to understand throughout all of 
this.
     Retailers are not obligated to blend biofuels under the 
RFS. They choose to do it, and they only choose to do it if 
doing so allows them to sell fuel for less money.
    So in this respect, retailers really function as surrogate 
for consumers in assessing advanced biofuels' value proposition 
and my views on the legislation today, which I will share, are 
simply designed to help you enhance advanced biofuels value 
proposition. In many ways the bill moves the RFS in the right 
direction in this respect. In other areas, it could be 
improved.
    Taking a step back, the RFS is really an extraordinary 
example of Congress and the executive branch sharing authority 
to implement the program.
    Mandating such a substantial shift in the composition of 
motor fuel in the United States is not an insignificant 
assertion of legislative authority and, obviously, to avoid 
unintended consequences associated with future market 
developments that Congress cannot be expected to predict or 
know, EPA has to have some flexibility to make adjustments 
along the way.
    In my view at this time, however, EPA has too much 
discretion and it has led to volatility and uncertainty that 
undermines the program's objectives.
    In reforming the RFS, the main lesson that you should have 
learned over the last decade is that Congress needs to reassert 
itself and limit the degree to which the ideological and 
political preferences of the executive branch can alter the 
program's trajectory.
    Overall, I think that the bill threads this needle quite 
nicely. A rules-based RVO process, extending the advanced 
biofuels categories an extra 10 years while also allowing for 
midyear adjustments will undoubtedly incentivize more fuel 
retailers to buy and blend more advanced biofuels while baking 
in enough flexibility with the midyear adjustments to avoid the 
unintended consequences.
    That being said, it was very disappointing to see that the 
bill was silent on the issue of small refinery exemptions. Over 
the past year, the EPA has been handing out small refinery 
exemptions like Halloween candy and they have been doing it 
oftentimes to some of the most successful profitable refining 
companies in the country.
    And the fact that those agencies are doing that in this way 
is undermining the demand for advanced biofuels. That agency 
officials can say with a straight face that they're doing it 
consistent with the law should operate as a bright shiny red 
flag to you that it's time to reexamine that provision either 
by eliminating it entirely or by altering it so that waivers 
are issued far less frequently and they're issued in a way that 
does not so dramatically undercut demand for advanced biofuels.
    I've heard Chairman Shimkus say before that in giving 
advice to people who testify that you're not going to hurt 
anyone's feelings if you don't use your full allotted 5 
minutes.
    So in that vein, I hope to hurt none of your feelings and I 
am happy to answer any questions that you have.
    Thank you again for inviting me.
    [The prepared statement of Mr. Fialkov follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores. Thank you.
    Mr. Kovarik, you're recognized for 5 minutes for your 
opening statement.

                   STATEMENT OF KURT KOVARIK

    Mr. Kovarik. Good morning.
    Thank you, Mr. Chairman, Chairman Shimkus, Ranking Member 
Tonko, and members of the committee. Thank you for inviting me 
to testify today.
    My name is Kurt Kovarik and I am vice president of Federal 
affairs for the National Biodiesel Board. My trade association 
represents 130 members with biodiesel production facilities in 
nearly all 50 States.
    The produce clean-burning biodiesel from a variety of 
feedstocks including vegetable oils, animal fats, and recycled 
oils such as used cooking oil.
    I appreciate the subcommittee's inclusion of biodiesel in 
today's discussion and throughout this process. I look forward 
to contributing to the development of any proposals to improve 
the Renewable Fuel Standard.
    The discussion draft highlights one of our frustrations 
with the RFS. The biodiesel industry has proven over and over 
again its ability to produce higher volumes. Yet, EPA 
continually sets biomass based diesel volumes in the annual RFS 
rules well below our demonstrated capacity.
    The agency continues, as demonstrated in November's final 
rule, to limit growth for our advanced biofuel volumes. 
Biodiesel achieves considerable carbon reductions, up to 86 
percent compared to petroleum fuels. Higher volumes for biomass 
based diesel would better achieve the environmental goals of 
the original RFS program.
    Biodiesel is the success story of the RFS. The program has 
been the foundation for biodiesel industry's growth over the 
past decade. Our industry has grown from about 400 million 
gallons in 2007 at the start of the program to more than 2.6 
billion gallons today.
    We expect the program will continue incentivizing 
investment and supporting our industry's growth over the decade 
and more.
    We are pleased that the discussion draft recognizes that 
the biodiesel industry would not benefit from the proposed 
changes to the octane standard or other regulatory changes in 
the discussion draft.
    We appreciate the committee's recognition that the 
biodiesel market is different from the ethanol market and that 
the discussion draft includes provisions to provide additional 
certainty for advanced biofuels.
    Unfortunately, these provisions fall short. We are 
concerned that the discussion draft does not incentivize 
ongoing investments and support predictable year-over-year 
growth for our industry.
    The discussion draft would direct EPA to set backward 
looking volume requirements. While this may protect existing 
assets in the near term, it would not drive further investments 
or growth.
    One necessary improvement to the draft would be to add 
achievable predictable growth for our industry over time. With 
consistent and predictable growth, the biodiesel industry would 
have the necessary incentive to make capital investments, 
develop additional feedstocks, and improve efficiencies.
    Stagnant or decreasing volumes do not provide any of those 
incentives. For the biodiesel industry there is no pressing 
need to significantly reform or replace the RFS.
    The program does not end or change drastically in 2022, 
despite what some have said. The EPA is required to set future 
volumes for all fuel categories under the same process that has 
been in place for biomass-based diesel since 2013.
     The RFS, therefore, has the potential to support our 
industry's growth beyond 2032 to where the discussion draft's 
support would end.
    The biodiesel industry continues to grow and to invest 
under the current RFS because the program, when stable, 
promises the opportunity for additional growth.
    We appreciate that the discussion draft would direct EPA to 
set volumes according to our proven ability to produce, that 
the draft would be significantly improved if it provided long-
term certainty and predictable growth over time.
    Thank you for the opportunity to testify today on behalf of 
America's biodiesel renewable diesel industry.
    I am happy to answer any questions.
    [The prepared statement of Mr. Kovarik follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Flores. Thank you for your opening comments. We 
appreciate each of your testimony. We are now going to move 
into the Q&A portion of our hearing. I want to recognize myself 
for 5 minutes for my questions.
    Mr. Coleman, your testimony claims that the discussion 
draft will increase gasoline prices because ethanol will not be 
used by refiners. That's somewhat in conflict with what we 
heard in the last panel.
    I think there were some folks that want to argue about the 
readily available octane enhancers today versus what was 
available 15 years ago.
    But I am interested in developing a current solution. So 
what's your proposed legislative solution for keeping gasoline 
prices lower using a high-octane performance standard?
    Mr. Coleman. So the reason that I made that allegation is 
that here is no alternative octane to ethanol that is even 
close to as cheap as ethanol is.
    And so you're either creating a status quo environment or 
are you putting something in the fuel that is more expensive?
    You don't have to look very far. If you look at zero 
percent ethanol blends in the market today they're 40 to 50 
cents per gallon more expensive.
    In terms of--and I am not going to dodge your question on 
what the legislative proposal is--I think the RFS should be 
bedrock baseline in this country because it's produced such 
outstanding outcomes, particularly for the middle of the 
country.
    And if you want to get to a cleaner environment with--give 
the auto industry what they want, which is cleaner fuel so they 
can improve emissions, then you do it on top of the RFS.
    Can you make tweaks to the RFS that makes sure dumping the 
RFS for higher octane will just remove the incentive to use 
renewability----
    Mr. Flores. So how do you set those levels and in a 
declining liquid fuels market how do you set them or you get 
them right and you don't somehow create disturbances in the 
market that harm consumers?
    Mr. Coleman. I am not sure if I agree with the idea that it 
harms consumers. So if you use--if you keep--maintain certainty 
with the RFS and what the signal that sends to the marketplace 
is that we are going to keep ethanol in the fuel, which right 
now is not--Mr. Thompson said it was 4 cents cheaper. It's 
closer to 20 cents cheaper.
    It says don't replace ethanol with more expensive octane 
enhancers and then ramp your RON the way you want to go. You 
don't lose ethanol, and if the oil industry wants to alkylate 
fuel or add more aromatics on top of that, then they can get 
there.
    They're not going to tell you they can do that, but they 
can do that.
    Mr. Flores. Let's continue.
    I think we heard in the last panel that the consumers 
ultimately are going to make the decisions as far as what the 
costs are, not the refiners. Not any other party.
    Mr. Kovarik, your testimony states, we appreciate that the 
21st Century Fuels Act would direct the EPA to set volumes 
according to our proven capacity to produce.
    You went on to say you would prefer that it provided long-
term certainty and predictable growth over time.
    What does that mean from a legislative language 
perspective? If we wanted to incorporate your concepts in our 
legislation what would that look like?
    Mr. Kovarik. Thank you for the question. I appreciate the 
opportunity to answer that.
    One of the things that has harmed our industry and really 
prohibited our industry from achieving its full potential is 
the fact that all of our Federal policies that affect our 
industry have been terribly uncertain since the creation of the 
RFS--the original RFS in 2005.
    One way to improve this legislation might be to not only 
provide longer term period for advanced biofuels but also 
include some degree of statutory certainty that volumes will 
increase year over year to allow the industry to make the 
capital investments, developing additional feedstocks, and grow 
to an economy of scale where they may no longer need certain 
areas of Federal policy support.
    Mr. Flores. So you're in the weeds a little bit. How would 
you set those volumes? How would that be done? When you don't 
know what the market is going to be like, you don't know where 
the technology is going, how would you set the volumes?
    Mr. Kovarik. I think you could start by looking at the 
domestic--the market, what is currently produced, and then 
include a reasonable achievable levels of growth whether that 
be--5 percent year over year might be an example. But what 
would be achievable and certain for the industry so that they 
could respond to it.
    Mr. Flores. OK. If you have positive tax treatment for 
biodiesel blending if you assume that that's assured, would you 
need the RFS to compete?
    Mr. Kovarik. The two policies are very complementary. The 
RFS essentially guarantees producers that there will be a 
market for certain volume of product.
    The tax incentive works in very different way in that is 
provides the incentive for our downstream partners to put in 
the infrastructure, the blending facilities, and the retail 
facilities to sell additional product to consumers.
    The reason our downstream partners want to sell more of the 
product is because of the value proposition because of the 
combination of the RFS and the tax credit, and I would like to 
see a time and place where we no longer need those policies.
    But the fact of the matter is neither have been certain 
enough with the longevity required to provide the industry with 
the certainty to grown and flourish.
    Mr. Flores. Thank you. My time has expired.
    I recognize Mr. Tonko for 5 minutes for his questions.
    Mr. Tonko. Thank you, Mr. Chair, and I think many Members 
support the RFS due to its envisioned role in promoting the 
development of and market for advanced biofuels.
    Even the program's most ardent supporters would have to 
admit that the expected growth of these fuels has not come to 
fruition.
    I know there are many reasons that that is the case. But I 
want to use this time to look forward.
    So would anyone like to comment on why or why not this 
discussion draft would remedy those issues and actually result 
in the growth of a domestic advanced biofuels industry?
    Anyone? Mr. Coleman.
    Mr. Coleman. I am sure I will have a couple people who want 
to help answer this question. But we do not believe that it's 
going to create growth in the advanced biofuels industry 
because we have to partner with the oil industry one way or the 
other to get the job done in the advanced biofuels industry.
    Sometimes it's on the front end with actual strategic 
investment. Valero, BP--they've been investors historically in 
this industry.
    But inevitably it's also on the back end. You have to be 
able to show investors that an oil industry is interested in 
not taking your fuel in order to build that plant and if we 
have a system that automatically predicts incoming gallons 
based on last year's volumes, the oil industry is simply not 
going to participate in that process and you're going to have 
incremental, if any, growth, basically only when the oil 
industry is completely uninvolved.
    And the issue that we have had with deployment over the 
last 10 years--and I think this is a point of agreement for all 
of the advanced biofuels advocacy--is not one of commercial 
technological development.
    We are there. It's an issue of scale. And when the program 
is not enforced for 2 or 3 years in the wake of a 100-year 
recession and then we have waivers, we have nothing to look to.
    So that is where our issues are and we would ask that we 
keep pushing on EPA to enforce the law.
    Mr. Tonko. Anyone else? Mr. McAdams.
    Mr. McAdams. I would say that the right question is, since 
you guys are working with the discussion draft here, what can 
you do to bring those fuels.
    And what I gave you after the last hearing was 21 examples 
of specific barriers to entry, definitions in other regulatory 
regimes that block the future of advanced undesignated fuels 
and block cellulosic fuels.
    What this draft does do is it speaks specifically to the 
wood piece in a way that has never been addressed before and 
that is a very positive thing.
    Let me give you an example. If you, under the current 
biointermediate regs at EPA, if I am trying to take a pyrolysis 
plant which I am either Ensign, which building a plant in 
Georgia or I am Fulcrum, I am building a plant in Nevada or I 
am Red Rock, I am building a plant in Oregon, and I use the 
woody biomass and I make a pyrolysis oil, under the current 
biointermediate standard I can't colocate that to coprocess 
into a jet fuel or into a diesel.
    And one of the things this hearing has done is it's focused 
way too much on gasoline and not enough on the fact that we use 
55 billion gallons of diesel and it's the fastest growing 
commodity in terms of demand, going forward, along with jet 
fuel.
    So if you want to make billions of gallons of jet fuel to 
fly the airplanes because they're not likely to be electric in 
my lifetime, you're going to need those diesel distillate 
fuels.
    And all of these impediments are statutorily driven that 
need to be addressed in a way. Same thing with waste oil. Same 
thing with one-celled biological organisms.
    There's a whole plethora of these things that just prohibit 
technologies that we never knew existed when we did the spill 
in '07 that blocked the entry to these volumes.
    Mr. Tonko. Thank you.
    Mr. Feraci.
    Mr. Feraci. Thanks, Mr. Tonko.
    So I think it's a great question and I want to share the 
experience that we've had in the RNG industry because it's a 
fairly new experience but I think that there's some lessons to 
be taken from that.
    So our fuel become qualified as a cellulosic biofuel in 
2014 and as I said in my statement, I mean, we've seen a 620 
percent growth in the use of the fuel--the cellulosic biofuel--
and what--one of the big things that has spurred that is the 
RFS program and it's something at the Federal--a decision at 
the Federal level that we are going to prioritize the 
introduction of advanced biofuels and that reduce greenhouse 
gas emissions that that's a Federal priority from an energy 
policy standpoint and from an environmental standpoint.
    But beyond that, the way that the RFS is structured now is 
when you set volumes out into the future it's prospective so 
that it allows investors to go and get private sector capital 
investment to put in the projects.
    And like I said, when you're doing an RNG project, you 
know, it's not something you just put up overnight. I mean, 
you're going to have to go into a 20-year offtake agreement 
with a feedstock provider to do this.
    So, you know, as it comes back to the discussion of the 
discussion draft, I mean, I think that a piece of constructive 
criticism would be that you really want to have a formula, 
going forward, that does drive growth and you want it 
prospective looking because if it's just--if you just look back 
at previous production it could have--what I was careful to say 
is, I think, an unintended consequence of potentially having 
production be flatter or even contract.
    Mr. McAdams. Mr. Chairman, could I address this RVO 
production?
    Mr. Shimkus [presiding]. Well, I think I am going to be 
asking you that question. So----
    Mr. Tonko. I will yield back.
    Mr. Shimkus. This is our last time together, so we are 
milking it out.
    So let me just go directly to Mr. McAdams, because I want 
to address this issue about how you set the RVOs.
    Obviously, you're in the minority at the panel saying that 
we should do it based upon--and we've had this discussion about 
what are we actually producing now and then--and then you 
propose a midterm review. So talk to your fellow panellists on 
why you think that is successfully achieving, I think, what 
their goals are.
    Mr. McAdams. OK. First of all, we need to realize that the 
Federal court directed EPA in 2013 that they could not put 
their thumb on the scale.
    So all three of these guys up on this panel are suggesting 
that they want to play politics and put their thumb on the 
scale instead of having a rules-based rule.
    I disagree with them. So in the case of Mr. Kovarik, if you 
took the approach that you have put in this bill, Mr. Kovarik 
would have gotten 2.7 billion gallons of an RVO for the 
biodiesel industry this year instead of 2.1. That's a 600-
million-gallon advantage.
    So I don't know what we are talking about when we are 
talking about taking the actual production----
    Mr. Shimkus. OK. We can be nice.
    Mr. McAdams. OK. Taking the actual EMTS numbers off the 
system which have to be put in the system five days after the 
fuels are produced and then every 6 months queue up the RVO in 
line with the actual production of those numbers, OK.
    Now, the second reason we should do this is because the oil 
industry and the obligated parties were allowed to use the 
waiver credits under the cellulosic standard and EPA, under the 
existing statute, which is another reason why we have to change 
the statute, EPA has taken the position since the beginning of 
the program that they must issue the same number of waiver 
credits each year as the RVO.
    So if I am Exxon Mobil, hypothetically, and I only need 300 
million waiver credits for the cellulosic pool, I wait until 
the end of the year and I buy the waiver credits from EPA.
    And all the gallons of cellulosic or biogas from my friend 
here don't get bought and it's not bought on a rateable take. 
You should consider a rateable take. That's also in my written 
testimony.
    Mr. Shimkus. Follow up with the midterm review and--because 
I do think the intent was for us let's have achievable real 
numbers.
    But then I do also appreciate the signals that we send 
about--for people who wanted growth. So talk about the midterm 
review and does that help incentivize that.
    Mr. McAdams. So the way I would see it is, if you--if 
you're actually bringing these fuels into the market, what 
would happen at the 6-month review, the EMT system would 
already incorporate these advanced numbers. So the number would 
go up.
    So for Mannie, at the 6-month mark instead of having to 
wait until the end of the year and argue that the next RVO 
should go into a black box at EPA and the number be lifted, the 
number automatically at 6 months relative to the projects he 
brought in would come into the RVO.
    It would be added to the RVO at 6 months. It would also be 
queued up at the end of the year at 12 months.
    So you would collect your numbers and, again, the NBB guys 
would collect their numbers in the actual line with what they 
produced and that has nothing to do with whether the oil 
industry is going to buy this fuel or not, because David's 
right--this fuel is going to get bought if the price is right.
    Mr. Shimkus. OK. Let me give you a short chance to respond, 
Mr. Coleman.
    Mr. Coleman. Very quickly, two quick things.
    We are not opposed to truing up. We've been asking for true 
up, which is midterm review, for quite some time. So that's 
point one.
    Point two is----
    Mr. Shimkus. So that's a good process of our bill?
    Mr. Coleman. Yes, that's a good--trueing up is OK as long 
as----
    Mr. Shimkus. Very good. Whew, I am glad I got a good one.
    Mr. Coleman. Although there's a comma. As long as----
    Mr. Shimkus. OK. Keep going. Keep going, quickly.
    Mr. Coleman. As long as--and this is the short second 
point--that it's forward looking and EPA--the one thing that 
Mr. McAdams said that wasn't true is we are not asking for a 
thumb on the scale.
    After they lost that case, EPA went out and did a good 
forecasting methodology that's forward looking. They can do 
that, have it be completely legal, and do midterm review.
    Mr. Shimkus. Great. Thanks. Anyone else?
    Go ahead, Mr. Feraci.
    Mr. Feraci. Yes, and----
    Mr. Shimkus. Quickly.
    Mr. Feraci. I am going to start, Mr. Shimkus, by--I am 
going to be nice. So here's my--so here's what I would say, and 
I really do think that Mike is probably coming at this from a 
good place and he's advocating for his members.
    When we said that there could be--potentially being 
unintended consequences, let's take a very real-world example.
    So the EPA just came out with the RVO for cellulosic 
biofuels this year. They're going to set that at 418 million 
gallons.
    So prospectively for this year, going forward, that's what 
the biofuel requirement is going to be. If you were doing a 
look back, it would be--the numbers aren't in final but it 
would be around 323 million based on EPA's numbers.
    So when you're talking about something of the scale that 
way, when you're talking about trying to drive RNG investment, 
it's a lot easier to go and get that investment forward 
looking, having a volume like that, as opposed to looking back 
and saying, yes, there's going to be this midterm review 
process and it may work out. It may not. People may time their 
buying different based on that midterm review.
    So, again, it's just a constructive observation in terms of 
things to think about when you----
    Mr. Shimkus. Yes. I've got--my time is expiring and so I 
think we are hashing this out that there is a way to get there 
and that's, again, Mr. Tonko's problem next year.
    [Laughter.]
    But I want to end--I want to end on this statement. Then I 
will go to Mr. Olson.
    While the RFS does not end in 2022, as you all have 
highlighted in this panel, it does evolve in a scenario where 
EPA has enormous discretion to set levels based upon a bunch of 
unweighted factors.
    That should scare everyone and that's part of the reason 
why we are trying to move to certainty versus uncertainty.
    And with that, I would like to yield to the Texan, Mr. 
Olson, for 5 minutes.
    Mr. Olson. I thank the chair, and welcome, guys, and let's 
be very friendly. OK.
    I am from a big oil and gas State, Texas. You all know 
that, but I want to say, Mr. Feraci, I've seen your product 
firsthand back home.
    Fort Bend County, right near Needville, Texas, we have a 
renewable natural gas facility that's going strong for about 5 
years now. It's in partnership with WCA, Morrow, Enerdyne, and 
Fort Bend County.
    What it does is there is a municipal dump. They stack up 
their products at the dump. They are decomposing. They grab 
methane. They turn that into natural gas, get a pipeline, it 
goes to market.
    So I believe in your product. It's working back home. I've 
seen it first hand. I will invite you to come out and see if 
you haven't.
    I have a question for all five of you, just sort of around 
the table. One thing that has bothered me over and over that's 
talked about by this panel is how uncertain the RFS is.
    I know DC has a role in that. There's other market factors. 
So can you talk about whether this bill moves in the right 
direction or the wrong direction for certainty and are there 
things that we should look at?
    Mr. Coleman, you're up first, sir.
     Mr. Coleman. So our position on the fundamentals of the 
bill, which is octane trade for RFS, is that that's not going 
to work for us because we don't know what the oil industry is 
going to do.
    The EIA suggestion that they can do it without us we do not 
feel like that is a good trade for us and could actually--we 
could be rolling back from a renewable fuels perspective.
    Mr. Olson. Mr. McAdams, sir.
    Mr. McAdams. Any bill that starts a discussion on reform is 
a good bill for us.
    Mr. Olson. There we go.
    Mr. Feraci.
    Mr. Feraci. I would base it on current law. So right now, 
admittedly, there's instability in the way that it functions 
post-2022. But it is permanent law, and it's something that's 
there for our industry as opposed to something that will 
sunset.
    Mr. Olson. I apologize. Mr. Feelakov? Feelakov, is that 
close?
    Mr. Fialkov. That's very close.
    Mr. Olson. Thank you.
    Mr. Fialkov. It's Fialkov. But I think that the bill moves 
in the right direction with respect to the rules-based RVO. I 
agree with everything that Mr. McAdams just said.
    I would say that this notion that there's kind of a 
homogenous oil industry that will, as part of a stratagem, not 
buy biofuels in order to artificially lower the RVO in a given 
year.
    It's simply not true. I mean, to the extent it would lower 
diesel prices by a cent a gallon I know people who would kill 
one another to get that cent.
    So that is something I am not concerned about and I don't 
know where that fear comes from. But I will say that all of the 
progress in terms of establishing certainty and what not 
doesn't mean a lot if you don't address the small refinery 
exemption issue because that is the kind of thing that will 
inject uncertainty and the mere fact that it's looming out 
there means that there's a level of uncertainty that you just 
can't overcome no matter how you adjust the RVO process.
    Mr. Olson. And Mr. Kovarik, your concerns.
    Mr. Kovarik. Yes, thank you, sir.
    Just very quickly. I think we view the backward-looking 
setting the volumes as a small step towards certainty. That, 
coupled with no guarantee or no ensure of growth--our 
industry--along with the sunsetting of the program in 2032, are 
the failings of the bill.
    Mr. Olson. Thank you.
    One final question for my good friend who controls all the 
power pumps there. We have professional drivers, mostly truck 
drivers, pros. We talked last panel about misfueling.
    Now, that could be a concern, and one of the panellists on 
the last panel pointed out a great point that hey, I can't 
control a person putting diesel in a gasoline engine--that just 
happens.
    So my question is are your customers more likely or less 
likely to make a misfueling mistake because they're pros and 
how can this bill help ensure we have no misfueling issues or 
as few as possible? Because that's a real big deal back home.
    That's a yes or----
    Mr. Fialkov. So with respect to the--if I understand your 
question correctly, there's very little concern that a 
professional truck driver will put gasoline in a truck, if 
that's what you're asking. I think----
    Mr. Olson. How about most of the people you work for--it's 
not just truck drivers. You got a lot of people here at the 
pump, and that's where these mistakes are made.
    Mr. Fialkov. Yes. I mean, undoubtedly, when you have a 
bifurcated fuels market or automobile market where some cars 
can only accept certain fuels, other cars can only accept other 
fuels and one of those fuels is materially less expensive than 
another, there are going to be instances where people are going 
to try to put the less expensive fuel in a car that can't 
handle it.
    So I think that all of the misfueling mitigation concerns 
that were addressed in the last panel by Mr. Columbus are spot 
on and the committee would be wise to take them.
    Mr. Olson. Thank you. I am out of time.
    Have a great holiday season. I yield back.
    Mr. Shimkus. The gentleman yields back his time.
    Seeing no further Members wishing to ask questions, I would 
like to thank you all for being here. I think it was a very 
vibrant and important part of this discussion on the draft 
bill, and I would like thank you for being here today.
    Before we conclude, I would like to ask for unanimous 
consent to submit the following documents for the record: a 
letter from the American Petroleum Institute, a letter from the 
Illinois Corn Growers, a letter from Briggs & Stratton, a 
letter from the National Farmers Union, and a letter from the 
Union of Concerned Scientists.
    Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    And pursuant to committee rules, I remind Members that they 
have 10 business days to submit additional questions for the 
record. I ask that witnesses submit their responses within 10 
business days upon receipt of the questions.
    Without objection, this subcommittee is adjourned.
    [Whereupon, at 12:30 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Since this is likely the last Environment Subcommittee 
hearing of the 115th Congress, I want to commend Chairman 
Shimkus and Ranking Member Tonko on their record of success. We 
have enjoyed a level of mutual respect that I believe has 
benefited both sides and produced work we can all be proud of. 
I look forward to continuing this working relationship in the 
116th Congress.
    Today's hearing on the Renewable Fuel Standard (RFS) is the 
fifth this Congress, and a culmination of Chairman Shimkus' 
substantial effort to reform transportation fuel policy. I 
commend the chairman for his efforts.
    The RFS program is far from perfect. Unfortunately, the 
``21st Century Transportation Fuels Act'' is even less perfect 
than the program it supposedly is reforming.
    This discussion draft does not address any of the known 
problems at the Environmental Protection Agency (EPA). It does 
not address EPA's substantial misuse of small refinery waivers 
to exempt refineries that are neither small nor in financial 
distress from biofuel blending obligations. It also does not 
address EPA's failure to set volumes at levels required by the 
law.
    What the 21st Century Transportation Fuels Act does is to 
create a high-octane fuel standard without a biofuel mandate. 
It also waives misfuelling liability for vehicles manufacturers 
and retailers. And, it provides fuel economy credit 
``harmonization'' to automobile manufacturers in an effort to 
garner their support. Ultimately, this legislation is mainly a 
broad compilation of diverging changes to the RFS and other 
vehicle programs.
    For a reform effort to be fair and successful, any RFS 
restructuring proposal should provide long term stability and 
certainty for all stakeholders. It should increase transparency 
and consistency in the market and promote overall environmental 
benefits through the diminishing use of fossil fuels.
    The discussion draft before us fails to meet any of those 
goals.
    Congress enacted the RFS program to diversify the fuel 
supply, reduce dependence on fossil fuels, promote rural 
development and deliver environmental improvements of air 
quality and greenhouse gas reduction. Furthermore, the RFS 
program promotes economic development for American farmers and 
their families, drives long term investments in technology, and 
provides a critical market for home grown fuel at a time when 
our rural economy is hurting.
    These are important things to consider in judging any 
reform effort. But it's also critical to ask the question of 
whether, in the face of intensifying climate change, a proposal 
improves the environmental benefits of the RFS or if it 
undermines them?
    This question is vital, because the transportation sector 
is the largest contributor of U.S. greenhouse gas emissions. 
Let me be clear: a policy change that extends the dominance of 
fossil fuel use in transportation, that slows improvement in 
vehicle fuel economy standards, or keeps us on a path of 
increased carbon emissions in the transportation sector is 
absolutely unacceptable.
    Unfortunately, I believe that will be the overall effect of 
this discussion draft. It will ultimately increase the use of 
liquid fossil fuels in inefficient cars, long into the future. 
Looking through a climate lens, this proposal would do nothing 
to address the existential problem of climate change and would 
likely make it worse. And, that's something I will oppose.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
